<html>
<title> - NOMINATIONS OF REAR ADMIRAL DAVID STONE TO BE ASSISTANT SECRETARY OF HOMELAND SECURITY (TRANSPORTATION SECURITY ADMINISTRATION) AND ALBERT FRINK TO BE ASSISTANT SECRETARY OF MANUFACTURING AND SERVICES FOR THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 108-963]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-963
 
                NOMINATIONS OF REAR ADMIRAL DAVID STONE
                 TO BE ASSISTANT SECRETARY OF HOMELAND
                   SECURITY (TRANSPORTATION SECURITY
                    ADMINISTRATION) AND ALBERT FRINK
                      TO BE ASSISTANT SECRETARY OF
                     MANUFACTURING AND SERVICES FOR
                       THE DEPARTMENT OF COMMERCE

=======================================================================




                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
82-272                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2004....................................     1
Statement of Senator Dorgan......................................    37
Statement of Senator Lautenberg..................................     2
Statement of Senator McCain......................................     1
Statement of Senator Snowe.......................................    41
Statement of Senator Wyden.......................................     2

                               Witnesses

Frink, Albert, Executive Vice President, Fabrica International, 
  nominated to be Assistant Secretary of Manufacturing and 
  Services, Department of Commerce...............................    23
    Prepared statement...........................................    25
    Biographical information.....................................    26
Stone, RADM David M., Acting Administrator, Transportation 
  Security Administration; nominated to be Assistant Secretary of 
  Homeland Security, Transportation Security Administration......     6
    Prepared statement...........................................     8
    Biographical information.....................................    11

                                Appendix

Article dated April 8, 2004 from the National Association of 
  Manufacturers entitled ``NAM Applauds Nomination of Al Frink To 
  Serve as Assistant Secretary for Manufacturing'' by Hank Cox...    49
Letter to Chairman John McCain and Ranking Member Ernest Hollings 
  from Manufacturers in Support of Al Frink for Assistant 
  Secretary for Manufacturing....................................    47
Letter dated July 11, 2004 to Hon. John McCain from Robert G. de 
  Posada, President, The Latino Coalition........................    48
Letter dated July 12, 2004 to Chairman John McCain and Ranking 
  Member Ernest Hollings from Werner H. Braun, President, The 
  Carpet and Rug Institute.......................................    50
Letter dated August 14, 2004 to Chairman John McCain and Ranking 
  Member Ernest Hollings from Keith D. Nosbusch, President and 
  Chief Executive Officer, Rockwell Automation...................    51
Letter dated July 15, 2004 to Hon. John McCain from Christopher 
  P. Pearce, Director of Congressional and Regulatory Affairs, 
  American Furniture Manufacturers Association...................    51
Press Release dated April 8, 2004 from American Iron and Steel 
  Institute entitled ``Steel Industry Voices Support for Frink 
  Nomination'' by Nancy Gravatt..................................    49
Press Release Statement from the Senate Democratic Leader Tom 
  Daschle........................................................    50


 NOMINATIONS OF REAR ADMIRAL DAVID STONE TO BE ASSISTANT SECRETARY OF 
 HOMELAND SECURITY (TRANSPORTATION SECURITY ADMINISTRATION) AND ALBERT 
 FRINK TO BE ASSISTANT SECRETARY OF MANUFACTURING AND SERVICES FOR THE 
                         DEPARTMENT OF COMMERCE

                              ----------                              


                         TUESDAY, JULY 13, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:05 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good afternoon. Today, we'll consider the 
nominations of Rear Admiral David Stone to be an Assistant 
Secretary for Homeland Security, Transportation Security 
Administration, with the Department of Homeland Security; and 
Mr. Albert Frink to be Assistant Secretary of Manufacturing and 
Services for the Department of Commerce.
    Both nominees have responded in detail to the Committee's 
requests for biographical and financial data. I will note that 
Admiral Stone was jointly referred to the Commerce and 
Governmental Affairs Committee. He appeared before the 
Governmental Affairs Committee on June 23, and was reported out 
of that Committee on July 6.
    If confirmed, Admiral Stone will face some major challenges 
at the Transportation Security Administration. Although it's 
very clear that the level of aviation security has improved 
since before September 11, 2001, there is significant room for 
improvement. In my view, the TSA needs to be more aggressive in 
the deployment and use of technology for screening of 
passengers and cargo, it needs to better anticipate new 
security threats, and, finally, the TSA needs to pay closer 
attention to non-aviation modes of transportation.
    Mr. Frink has been nominated to a new position in the 
Department of Commerce. President Bush announced the position 
of Assistant Secretary for Manufacturing and Services in 
September 2003. The position was created to help address the 
business challenges and job losses faced by many American 
manufacturers.
    We appreciate you both appearing before the Commerce 
Committee today. I know your nominations are a great honor and 
that your families are very proud.
    I'll ask Senator Wyden and then Senator Lautenberg if they 
have any opening statements.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, I do, and I'll be brief. And I 
very much share your view, this is a hugely important 
assignment. And I have questions in a number of areas.
    I do want to take note of the fact that I have just gotten 
the agency's response to a number of pointed questions that 
I've asked over the last year about the CAPPS-2 program, 
Computer Assisted Passenger Pre-screening System. And it looks 
to me, from the response that I've gotten to these questions, 
that, for all practical purposes, the agency is going back to 
the drawing board with respect to putting this proposal 
together. And I'm going to ask Mr. Frink a number of questions 
with respect to this.
    And I think you know there are some other areas I'm 
concerned about. Senator Dorgan and I are concerned about TSA's 
policies with respect to allowing butane lighters to be 
permitted onboard the aircraft. This is not a hypothetical 
issue, because the shoe-bomber, Richard Reid, was trying to 
detonate an explosive device onboard, and had--we have the 
prospect of this policy, with the butane lighters being 
onboard--certainly, there could have been yet another tragedy.
    So I'll be asking a number of questions, but expect that 
I'll be very pointed with respect to the CAPPS-2 program, 
because it does look to me like the agency is really starting 
over, and that may be very welcome, but the country deserves 
some sense of direction with respect to how you're proceeding.
    Thank you, Mr. Chairman.
    The Chairman. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    This is the second chance that I've had to consider Admiral 
Stone's nomination since the Government Affairs Committee, of 
which I am also a Member previously considered it. And Admiral 
Stone has lots of good qualifications, attributes that'll serve 
him well and the country, if he's confirmed as Assistant 
Secretary of Homeland Security and Administrator of the 
Transportation Security Administration. And I assume that we're 
going to move quickly on that confirmation.
    But I have a bit of a quarrel, not with Admiral Stone, as 
much as with TSA and DHS, and I thought maybe, as I listened to 
Senator Wyden, that we were going to be echoing the same 
concerns, and that is, the agencies are not responding to post-
hearing questions that I've posed to various nominees and 
officials, and they're not complying with the terms of an 
amendment that I successfully offered to the Fiscal Year 2004 
DHS appropriations bill. I'm still waiting for answers to 
questions I raised at Commerce Committee hearings last 
September and November, and this past March.
    At the March hearing on maritime security, Admiral Stone 
promised that he would track down the answers to my questions, 
but--we did get something this morning, and I appreciate that. 
It's taken awhile, and I hope that that process will be sped 
up.
    Last year, the Senate passed my amendment requiring DHS to 
report to Congress on how effective the color-coded threat 
alarm alert system is, and suggest possible modifications. The 
report was due 7 months ago. And I know that DHS faces lots of 
challenges, but it should pay attention to the requirement of a 
public law before it's dragged kicking and screaming, and 
patience gets lost. Especially in light of last week's 
particular warning of the imminence of an al Qaeda attack, and 
an FBI announcement that the two-mile strip of land between 
Port Newark, our seaport, and Newark Liberty International 
Airport is the number one terrorist target in the Nation.
    And I'm pleased also to meet Mr. Frink and to hear what 
he's going to say. I'm glad that we finally have a nominee for 
the post of Assistant Secretary for Manufacturing. When we 
looked back at the number of jobs that we have lost in 
manufacturing, regardless of cause, the fact is that these jobs 
are essential, for the kind of a society that we are, to be 
able to have the capability of producing product when we need 
it, and not be out on a limb, as I understand we are in several 
industries where we've given up the processing and given it to 
places--that aren't necessarily friendly to us either. Commerce 
Secretary Don Evans announced the creation of this position, 
and then it sat vacant for some months while we continued to 
lose manufacturing jobs.
    Mr. Frink has a big task ahead of him, which is to stem the 
loss of these jobs that were lost in the last few years. 
Manufacturing jobs are critical. Manufacturing employees 
receive higher wages, more generous benefits than many other 
workers. And I look forward to the nominee's ideas on how we 
can revitalize this crucially important sector of our economy.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lautenberg.
    Before we begin, I would like to ask if the witnesses would 
like to introduce members of their family who may be the 
audience. We'll begin with you, Admiral Stone.
    Admiral Stone. Thank you, Mr. Chairman.
    It's my pleasure to introduce my wife, Faith. Faith has 
been my guiding light, and we just celebrated our 27th wedding 
anniversary.
    The Chairman. Would you identify yourself for that singular 
service to our nation?
    [Laughter.]
    Admiral Stone. Thank you, sir.
    The Chairman. Thank you very much.
    Anyone else, Admiral? Anyone else, Admiral? Is that it?
    Admiral Stone. No, that's it, sir.
    The Chairman. Mr. Frink?
    Mr. Frink. Yes, Mr. Chairman.
    I would like to have the pleasure of introducing my wife, 
Denise. And we just celebrated, 2 days ago, our 12th 
anniversary, so we're in the same--not quite the same amount of 
years, but anniversary-wise, we're sharing the same 
celebration; my brother, John, who is here to support this 
whole effort, and his wife, Cheryl; and my contingent of 
friends--I call them the A-Team--who are here to also lend 
their support, came 3,000 miles, which I'm very----
    The Chairman. Great.
    Mr. Frink.--thankful for.
    The Chairman. Well, then the A-Team is deserving of 
recognition. Would you please stand, A-Team?
    [Laughter.]
    The Chairman. Thank you. And thank you for coming here in 
support of this fine man who has agreed to serve his country. 
Thank you for being here.
    Mr. Frink. Thank you.
    The Chairman. I'd just like to make a couple of comments--
one to you, Admiral Stone, and then to Mr. Frink--and then I'll 
turn to Senator Wyden.
    Again, I'm very concerned about the lack of our 
improvements in technology at airports. We are going to have 
the busiest summer, airwise--commercial airwise--since before 
2001, and we know what's going to happen at certain airports, 
because it's already happening. I don't see any other 
resolution to this if we want our airline industry to remain 
healthy and robust, which is something we want, but--security 
is first, but we also want a healthy airline industry in 
America, and we've got to put more emphasis on technology.
    As far as I can see--now, I know you're opening--and I'll 
be glad to hear your comments--some experimental programs--one 
at Minneapolis, I believe, and--but, overall, the procedures 
are just about exactly the same as those we instituted 
following September 11, and we need to have some kind of 
improvement, and I don't see how that happens without 
technology.
    I'm beginning to sound like a very, very repetitious and 
unpleasant Senator, but I really believe that, for people to 
continue to go through the ordeal that they do at certain 
times--McCarran, on Sunday; Atlanta, on certain days of the 
week. We all know where these places are where they're just 
waiting one, two, 3 hours, and it's just not an experience 
that's conducive, in my view, to security, as well as being 
convenient, because once they start getting jammed up, then the 
natural pressure is on the TSA employees to move the process 
forward, and that's when we find out, from the GAO and others, 
that certain items have gotten through security, et cetera.
    So, Admiral, if I had priorities for you, it, is, one 
technology, and, two, look at the balance now between aviation 
security and port and rail security. Now, the last time I 
checked, we--for fiscal 2005, we only had 146 million for the 
transportation security enterprise, which includes maritime and 
land security, intelligence analysis functions, transportation 
security coordination, et cetera. So we may need more help both 
in port and rail security.
    I'll be glad to hear your response to that diatribe.
    Admiral Stone. Yes, sir.
    The Chairman. Go ahead.
    Admiral Stone. The emphasis on new technology is, indeed, I 
think, critical to our future, as you state. Our covert testing 
program, our own assessment from security, looks from our FSDs, 
Federal security directors, locally, as well as outside teams, 
GAO audits, all point to that, from the security point of view, 
as well as customer service, but we need to go down that road.
    The effort that you're reading about at Minneapolis/St. 
Paul, the Registered Traveler Program, I think, is key to our 
success on both the security end, customer service fronts. 
Number one, it's the use of a biometric iris-scan/fingerprint 
in order to give us a higher level of security. But, at the 
same time, when we marry that up with an airport where we can 
have a lane and a reduced level of screening, what that 
translates to is improved customer service and throughput. So I 
think that's a very powerful program for us. We intend to 
expand it to Los Angeles International Airport next week, then 
Houston, Boston, and then Ronald Reagan.
    When we marry that up with the other effort that we have 
ongoing with explosive trace portals going out to airports--
we've already sent them to Rochester, T.F. Green and 
Providence. They're slated also go down to Tampa, San Diego, 
Gulfport. This is the same machine that we recently 
demonstrated out in New Carrollton in the rail environment. Our 
ability to detect, at the checkpoint, explosive residues is, I 
think, critical, and also will further enhance, in partnership 
with Registered Traveler, that effort.
    For baggage screening, we're now, at San Francisco Airport, 
multiplexing, the idea that--where you can have one person 
review the screens of baggage, and then reduce all of that 
extra manpower and invest in technology--is where we're headed 
on the baggage issue.
    So whether it's throughput at the checkpoint, enhanced 
security, or in baggage with multiplexing and networking, those 
are the investments, I think, that will shape our future, and 
we're keen to move down that road.
    The Chairman. Thank you, Admiral. And it's my intention, 
with the agreement of my colleagues on both sides, to move your 
nomination as quickly as possible. Your job is vital.
    Mr. Frink, in many ways, I think you are what America is 
all about. I think you came here at the age of three, is that 
correct, to the United States? And you have a remarkable 
success story, both from your own entrepreneur standpoint, but 
also in the creation of jobs in this country. And we're very 
pleased that you are going to serve. I'm sure you had a much 
more comfortable life style than the one you're going to 
experience in the coming weeks and months.
    [Laughter.]
    The Chairman. But let me point out to you, your job is very 
important, because if you looked at the top five concerns of 
Americans, as far as issues are concerned, one of them is jobs. 
Yours is going to be to see how we can not only create jobs in 
America, but keep jobs in America. Your background and 
experience, as being out there in the real world, I think 
qualifies you a great deal. I don't have any questions for you, 
but I think we're placing a lot of hope and optimism in your 
ability to make sure that we achieve our goal, and that is the 
provision of jobs to every American that needs one.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Admiral Stone, as you could tell from my comments----
    The Chairman. I apologize. In my declining years, I forgot 
that we need opening statements from both Admiral Stone and Mr. 
Frink, and I apologize, Senator Wyden. I was reminded by my 
astute staff.
    [Laughter.]
    The Chairman. I'm on a work-release program. Please 
proceed.
    [Laughter.]

               STATEMENT OF RADM DAVID M. STONE,

         ACTING ADMINISTRATOR, TRANSPORTATION SECURITY

                ADMINISTRATION; NOMINATED TO BE

           ASSISTANT SECRETARY OF HOMELAND SECURITY,

             TRANSPORTATION SECURITY ADMINISTRATION

    Admiral Stone. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Hollings, distinguished Members of 
the Committee, I'm grateful to you for scheduling this hearing 
on my nomination by the President to the position of Assistant 
Secretary of Homeland Security, Transportation Security 
Administration.
    I appreciate very much the opportunity to have recently met 
with several Members of this Committee, and also meet with and 
answer questions from staff members. I've also testified before 
this Committee, and I am grateful for your continued dedication 
to giving the Department of Homeland Security and TSA the tools 
to provide for the transportation security our country needs.
    I am honored that President Bush has nominated me for this 
important position in the Department of Homeland Security. If 
confirmed, I will do everything in my power to serve the 
President, the Secretary, the Congress, and the American people 
faithfully.
    I've spent my entire adult life in service to our great 
nation. After attending the Naval Academy, I proudly served for 
almost 28 years, retiring at the rank of rear admiral. During 
my Navy career, I had many challenging assignments, including 
four operational commands at sea.
    After my retirement from active duty, I was honored that 
Secretary Mineta selected me as one of the first Federal 
security directors in the newly formed Transportation Security 
Administration. I was pleased to serve as the first FSD for Los 
Angeles International Airport.
    When I arrived in Los Angeles in July 2002, our focus was 
on meeting the two congressional deadlines found in the 
Aviation and Transportation Security Act, to screen the 
passengers with Federal screeners by November 19, 2002, and 
screening all checked baggage for explosives with electronic 
screening equipment by December 31 of that year. Meeting those 
mandates was an exceptional challenge. With the help of the 
many dedicated people and a true spirit of partnership, Los 
Angeles International Airport was able to meet both deadlines. 
The support by all the local entities was indicative of the 
amazing level of cooperation that all of us have seen time and 
again throughout our great country following the attacks of 
September 11. Themes such as leadership, caring about people, 
partnership, working as a teammate, and friendship, 
establishing trust and confidence, were the keys to success at 
LAX. They are the same themes I have continued to abide by.
    In August 2003, Admiral Loy, then the Administrator of TSA, 
asked me to join TSA as his Deputy Chief of Staff, with a 
particular focus on assuring that TSA was responsive to 
important concerns in the direction of Congress. In December 
2003, I was named Acting Administrator of TSA when Admiral Loy 
assumed the duties as the Deputy Secretary at the Department of 
Homeland Security.
    I am extremely grateful for the confidence that Secretary 
Ridge, Deputy Secretary Loy, and Under Secretary Hutchinson 
have shown in me in asking me to serve in this critical 
position. The continued support and mentoring that I have 
received from each of them has been outstanding.
    As you well know, recent events have reinforced the fact 
that we live in dangerous times. Last December, the national 
threat level was raised to orange due to concern over a number 
of potential threats to homeland security, particularly in the 
aviation sector. In February and March, terrorists attacked 
subway and rail stations in Moscow and Madrid, resulting in 
many lives lost.
    Clearly the transportation sector remains an inviting 
target for terrorist attack. We remain very concerned about 
potential terrorist threats leading up to our national 
election. With these threats in mind, as Acting Administration 
I have worked to bring an intense operational focus to TSA. I'm 
in the midst of giving our Federal security directors more 
authority in the hiring, training, testing, and managing of 
their screener work force. If confirmed, I will continue down 
this road.
    Intelligence is also at center stage at TSA. I chair a 
daily comprehensive review of the intelligence assembled on all 
sectors of transportation, and the threats that are signaled by 
this intelligence. Together with all of my senior staff, we 
review, in detail, daily reports from Federal security 
directors on incidents concerning aviation security, as well as 
the daily reports of incidents affecting non-aviation modes of 
transportation. I take this daily briefing very seriously, and 
make it the center of gravity of our workday. I use it to shape 
the course that I would like TSA to take for developing both 
short- and long-term risk-mitigation planning.
    If confirmed, I plan to continue this practice so that 
every day TSA is focused on the threats to transportation 
security and is prepared to rapidly bring our resources to bear 
on mitigating risk with a true sense of urgency.
    In my written statement, I have detailed some of the 
important progress TSA has made in our Aviation Partnership 
Support Plan, our Registered Traveler Pilot Program, and our 
Pilot Program for Explosive Trace Detection Portals. I will be 
pleased to answer questions about these programs and other 
important ongoing aviation security initiatives.
    I would like now to briefly address TSA's advancement in 
security in the non-aviation modes of transportation. TSA has 
made steady progress in this area, and we fully realize there's 
much work left to do. TSA is staying attuned to the security 
needs across the entire transportation sector, and we are 
engaged in risk-mitigation efforts daily.
    The Secretary designated TSA with the responsibility to 
prepare an overarching sector-specific plan for the 
transportation sector. As required under the National 
Infrastructure Protection Plan outlined in Homeland Security 
Presidential Directive 7, a significant portion of TSA staff is 
involved in this major undertaking. We are working in close 
coordination with DHS components, with the Department of 
Transportation, and its modal administrations, and with other 
key Federal agencies, as well as appropriate stakeholders, in 
developing this plan.
    Of note, TSA recently issued the first security directive 
to rail and mass-transit operators. We also completed Phase 2 
of our Transit and Rail Inspection Pilot, called TRIP, to 
evaluate the use of emerging technologies in the rail 
environment. And we will begin Phase 3, in Connecticut, in the 
coming days.
    Mr. Chairman, I fully recognize the critical role of 
Congress, and, if confirmed, will work to ensure our 
organization is responsive and respectful of that important 
relationship.
    In closing, on behalf of our entire organization, I would 
like to thank you for your support of TSA.
    Mr. Chairman, Members of the Committee, this concludes my 
prepared statement. I look forward to answering your questions.
    [The prepared statement and biographical information of 
Admiral Stone follow:]

Statement of RADM David M. Stone, Acting Administrator, U.S. Department 
      of Homeland Security, Transportation Security Administration
    Good afternoon Mr. Chairman, Senator Hollings, and distinguished 
Members of the Committee. I am grateful to you for scheduling this 
hearing on my nomination by the President for the position of Assistant 
Secretary of Homeland Security (Transportation Security 
Administration).
    It is a particular honor to appear before this Committee because 
you have long played a pivotal role in confronting the transportation 
security challenges facing our nation. I have testified before this 
Committee twice here in Washington and at a field hearing in Los 
Angeles in August 2002, on a wide range of aviation and intermodal 
security matters, and I have gained great respect for the Committee's 
insight and commitment to transportation security.
    I am honored that President Bush has nominated me for this 
important position in the Department of Homeland Security. If 
confirmed, I will do everything in my power to serve the President and 
the Secretary faithfully. I have an outstanding team at the 
Transportation Security Administration (TSA), and I know that they will 
perform at even higher levels in the future.
    Before I discuss my background with you, and the position for which 
the President has nominated me, I want to recognize my wife Faith, who 
has been my shining light during our 27 years of marriage. This period 
of time was spent in service to our country with many deployments and 
many days and nights at sea. I could not possibly thank her enough.
    I have spent my entire adult life in service to our great Nation. 
At age 18, I was privileged to receive an appointment to the United 
States Naval Academy in Annapolis, and I proudly served for almost 28 
years, retiring with the rank of Rear Admiral. During my Navy career, I 
served on a number of ships, including as the Commanding Officer of the 
Spruance Class Destroyer USS John Hancock, as the Commander of Middle 
East Force/Destroyer Squadron FIFTY homeported in Manama, Bahrain, as 
Commander of NATO's Standing Naval Force Mediterranean, homeported in 
Naples, Italy, and as the Commander of Cruiser Destroyer Group 5/The 
Nimitz Battle Group. During these assignments, I was honored to serve 
with some of the finest men and women in our Armed Forces.
    While not on ship assignments in the Navy, I served in several 
prominent positions both at the Pentagon and overseas, concluding my 
Navy career as the Director for Environmental Protection, Safety and 
Occupational Health. My various assignments in the Navy have given me a 
thorough understanding of national security policy and a broad view of 
the requirements necessary to defend our national interests. I have 
worked closely with military and diplomatic representatives of many 
countries, helping me to understand the special issues involved in 
dealing with nations and peoples of different viewpoints and cultures. 
In assuming increasing command responsibility over the years, I have 
developed a firm knowledge of how large organizations function, and how 
to lead, manage, and motivate people to ensure that the strategic and 
operational goals of the organization are met.
    After my retirement from active duty with the U.S. Navy, I was 
honored that Secretary Mineta selected me as one of the first Federal 
Security Directors (FSD) in the newly formed Transportation Security 
Administration. I agreed to serve as the first FSD for Los Angeles 
International Airport (LAX).
    When I arrived at LAX in July 2002, our focus was meeting the two 
key Congressional deadlines found in the Aviation and Transportation 
Security Act (ATSA). The first required that we have all passenger 
screening performed by newly hired, trained, and deployed Federal 
screeners by November 19, 2002. The second deadline called for 
screening all checked baggage for explosives with electronic screening 
devices, manned by Federal baggage screeners, by December 31, 2002. In 
July 2002, all passenger screening at LAX was still performed by 
private contract screeners, most of whom were in place before September 
11, 2001, and many of whom could not meet the new strict qualification 
standards of ATSA. TSA and LAX also began the immense task of 
purchasing, installing, and operating the Explosives Detection Systems 
(EDS) and Explosives Trace Detection (ETD) systems for screening 
checked baggage. Neither LAX, nor virtually any other airport, was 
constructed with a view towards satisfying the comprehensive aviation 
security measures that Congress and TSA envisioned. Meeting this 
deadline was an exceptional challenge.
    I am pleased that, with the help of many dedicated people, LAX was 
able to meet both deadlines. This required the cooperation of not just 
TSA employees, but numerous others including the City of Los Angeles 
and its airport management staff; the air carriers; law enforcement 
officers; the many contractors involved in hiring, training, and 
deploying screeners and explosives detection equipment; and the 
hundreds of pre-9/11 screeners who agreed to stay on board until TSA 
screeners replaced them. Many later joined us as TSA screeners. I must 
also recognize the cooperation of the millions of passengers who passed 
through LAX during that period. The support by all parties was 
indicative of the amazing level of cooperation that all of us have seen 
throughout the country following the attacks of 9/11.
    Having met the goals of standing up the FSD organization at LAX and 
making the transition to Federal passenger and baggage screening 
requirements, I was later asked by ADM Jim Loy, then the Administrator 
of TSA, to take on one more assignment for TSA. In August 2003, I 
rejoined TSA at the headquarters staff as TSA Deputy Chief of Staff, 
with a particular focus on ensuring that TSA was responsive to the 
important concerns of the Congress. In all of my dealings with the 
Members of Congress, I have been struck by their compelling desire to 
see that DHS and TSA fully succeed in their mission.
    In December 2003, when ADM Loy moved to his current position as 
Deputy Secretary of Homeland Security, I was named Acting Administrator 
of TSA. I am grateful for the confidence that Secretary Ridge, Deputy 
Secretary Loy, and Under Secretary Hutchinson have shown in me by 
asking me to serve in this critical position. The continued support 
that I have received from each of them has been outstanding.
    Recent events have reinforced the fact that we live in dangerous 
times. Last December, the national threat level was raised to Orange, 
based on concerns over a number of potential threats to homeland 
security, particularly in the aviation sector. In February and March, 
terrorists attacked subway and rail systems in Moscow and Madrid, 
resulting in the loss of many lives. Clearly, the transportation sector 
remains an inviting target for terrorist attacks.
    As Acting Administrator, I have worked to sharpen the operational 
focus at TSA. The centralized hiring and management system that TSA 
adopted in order to startup the organization from scratch was effective 
during that period, but it requires revision now that we are a more 
mature organization. I am in the midst of giving our Federal Security 
Directors more authority in hiring, training, testing, and managing 
their screener workforce. If confirmed, I will continue down this road. 
I expect our FSDs to be fully responsible for the Federal security 
program at their assigned airports. If confirmed, I will give them the 
necessary authority to carry out these functions, and I will hold them 
accountable for their actions.
    Every morning, I chair a comprehensive review of the intelligence 
assembled on all sectors of transportation, and the threats that are 
signaled by this intelligence. Together with my senior staff, we 
review, in detail, daily reports from FSDs on incidents concerning 
aviation security, and daily reports of incidents affecting non-
aviation modes of transportation. With the top-notch staff that we are 
assembling at our Transportation Security Operations Center, we 
coordinate intelligence, threat and risk assessments, and operational 
responses with necessary Federal, state, and local agencies, and with 
key non-Governmental stakeholders in the transportation sector. I take 
this daily briefing very seriously, and I use it to shape the course 
that I would like TSA to take. If confirmed, I plan to continue this 
practice so that every day we are focused on the threats to 
transportation security, enabling us to bring our resources to bear on 
mitigating those threats.
    In my role as Acting Administrator, I have been guided by several 
key principles. The first of course is Leadership--leading people, 
leading the development and deployment of technology to more 
efficiently use our resources, and leading change. The second is 
Partnership. I have worked to develop and promote a spirit of 
partnership with all of the stakeholders that are involved in 
protecting, operating, and using our transportation systems. Last, but 
just as critical, is the concept of Friendship. It is vital for the 
success of DHS and TSA that we inspire the trust and confidence of the 
American people, and their elected representatives in Congress. I am 
fully engaged in building this foundation. Part and parcel of this 
foundation is the understanding that TSA will respect and preserve the 
individual privacy of our citizens while we work to enhance security. 
Another key element in the foundation of Friendship is customer 
service. We will better serve the overall interests of homeland 
security if we provide a high level of customer service. I have sought 
to instill this concept in my staff, whether in the field or in 
headquarters. If confirmed, I will continue to move forward with these 
principles in mind.
    With passenger enplanements near pre-September 11 levels and in the 
midst of the busy summer traveling season, we continue to focus our 
attention on providing effective security as efficiently as possible. 
TSA has developed and implemented an Aviation Partnership Support Plan 
(APSP) for instituting best practices that serve us well not only for 
the busy summer period, but also beyond. We have targeted a number of 
key airports for special emphasis this summer. Although airports have 
experienced the highest number of passengers since the summer of 2001, 
TSA's careful planning in partnership with air carriers, airport 
operators, and the passengers themselves is paying off, increasing 
screening throughput at all airports while assuring the same high level 
of security that the Nation expects.
    TSA is making progress on other fronts as well. We have launched 
the Registered Traveler program at Minneapolis-St. Paul airport with 
cooperation from Northwest Airlines, and through the summer we will 
initiate pilots at 4 more airports. Those airports, and their airline 
partners are: Los Angeles International Airport--United Airlines; 
George Bush International Airport/Houston--Continental Airlines; Boston 
Logan International Airport--American Airlines; and Ronald Reagan 
Washington National Airport--American Airlines. Guidance for the 
Screening Partnership Program has been issued, announcing that TSA will 
accept applications from airports during a 3 week period from November 
19 to December 10, 2004. This will be followed by a competitive 
selection process for private contractors. TSA's Assistant 
Administrator for Transportation Security Policy, Tom Blank, testified 
before you on this issue on June 24, 2004.
    TSA continues to press forward with initiatives to improve the 
technology used to screen airline passengers and baggage, and if 
confirmed I will continue these efforts as a high priority. We have 
initiated operational testing and evaluation of an explosives trace 
detection portal at a passenger security checkpoint at T.F. Green 
Airport serving Providence, Rhode Island, and Greater Rochester (N.Y.) 
International Airport. By the end of this month, we will expand this 
test to include San Diego International Airport-Lindbergh Field, Tampa 
International Airport, and Gulfport-Biloxi (Miss.) International 
Airport. TSA is performing Research and Development (R&D) on document 
scanners to identify trace explosives that might pass from passengers 
to boarding documents. TSA is also engaged in R&D on small explosive 
detection systems units for screening carry-on baggage.
    TSA also has a robust program in effect for enhanced screening of 
air cargo carried aboard passenger planes. Using our Air Cargo 
Strategic Plan as a foundation, we have put into practice numerous 
improvements in the air cargo supply chain, targeting high-risk cargo 
as we also undertake the R&D efforts necessary to identify an effective 
and appropriate technology solution. We have backed this up with 
regulatory requirements to the air carriers that are enforced by a 
staff of air cargo security inspectors.
    I would also like to address the attention that TSA is devoting to 
the non-aviation modes of transportation. Some have voiced a concern 
that TSA's operations may not give the same attention to the security 
needs of the five other transportation modes that we do to aviation. 
This Committee has held several hearings to keep well-informed of TSA's 
activities in intermodal transportation matters. I firmly believe that 
TSA is fully attuned to transportation security needs across the 
transportation sector and that we are acting on these needs. The 
Department of Homeland Security designated TSA with the responsibility 
to prepare an overarching Sector Specific Plan (SSP) for the 
transportation sector, as required under the National Infrastructure 
Protection Plan outlined in Homeland Security Presidential Directive 7 
(HSPD-7). Staff throughout TSA is fully engaged in this major 
undertaking. In this effort, we are working under the leadership of the 
Department and the Border and Transportation Security directorate and 
in close coordination with DHS components including the U.S. Coast 
Guard, the Information Analysis and Infrastructure Protection 
directorate, the Science and Technology directorate, and U.S. Customs 
and Border Protection. The SSP is also being developed in collaboration 
with the Department of Transportation and its modal administrations, 
with other key Federal agencies, and with non-Federal stakeholders.
    On a more operational note, TSA has recently completed two separate 
pilot projects involving the use of explosives detection technology to 
screen passengers, baggage, and cargo at two rail stations within the 
Washington, D.C. commuting area. Data collected from these pilot 
projects will enable us to assess the use of this technology as a high 
threat response capability in the rail environment.
    Obviously, as a result of the clear direction from Congress in ATSA 
and subsequent legislation, TSA has a more prominent operational role 
in aviation security than in non-aviation modes of transportation. 
However, in coordination with the Department and our other partners, we 
will ensure that the appropriate level of security applies to other 
modes of transportation, commensurate with the threat and risks faced 
in those modes. If confirmed, I look forward to furthering the security 
of all modes of transportation, in concert with our many partners.
    I welcome the cooperation that TSA has received from Congress since 
we were created. I fully recognize the critical oversight function of 
Congress, and if confirmed, I hope to continuing forging this important 
partnership.
    Mr. Chairman, Senator Hollings, and Members of the Committee, this 
concludes my prepared statement. I look forward to answering your 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.) David 
Malcolm Stone.
    2. Position to which nominated: Assistant Secretary of Homeland 
Security (Transportation Security Administration).
    3. Date of nomination: Announced by The White House April 8, 2004.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: 601 South 12th Street, Arlington, VA 22202.
    5. Date and place of birth: 07/13/1952; Elgin, Illinois.
    6. Marital status: (Include maiden name of wife or husband's name.)
        Married to Cynthia Faith Stone (Maiden Name Voth) in 1977 to 
        present.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) None.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

------------------------------------------------------------------------
        School               Attended          Degree      Date Granted
------------------------------------------------------------------------
Naval War College         08/1985-06/1986   MA Nat'l            06/1986
                                             Security
                                            & Strat
Salve Regina College      08/1985-05/1986   MS                  05/1986
 (Newport, RI)                               Management
U.S. Naval               09/1977--03/1979   MA Nat'l            03/1979
 Postgraduate                                Security
                                            Affairs
U.S. Naval Academy        07/1970-06/1974   BS History          06/1974
Irving Crown High         09/1966-06/1970   Diploma             06/1970
 School
 Carpentersville, IL)
------------------------------------------------------------------------

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)
    I had continuous service in the U.S. Navy from my entrance into the 
U.S. Naval Academy in July 1970 until my retirement from the U.S. Navy 
in April 2002. My specific positions and assignments are found on the 
attached sheet.

------------------------------------------------------------------------
        Employer              Title         Location          Date
------------------------------------------------------------------------
Transportation Security  Acting           Arlington,    12/2003-Present
 Administration           Administrator    VA
------------------------------------------------------------------------
Transportation Security  Deputy Chief of  Arlington,    08/2003-12/2003
 Administration           Staff            VA
------------------------------------------------------------------------
Transportation Security  Federal          Los           06/2002-05/2003
 Administration           Security         Angeles,
                          Director, Los    CA
                          Angeles Intl
                          Airport
------------------------------------------------------------------------
U.S. Navy                Director,        Washington,   12/2001-04/2002
                          Environmental    DC
                          Protection,
                          Safety &
                         Occupational
                          Health--CNO
                          Staff
------------------------------------------------------------------------
U.S. Navy                Commander,       San Diego,    10/2000-12/2001
                          Comcrudesgru     CA
                          Five
                         Nimitz Battle
                          Group
------------------------------------------------------------------------
U.S. Navy                Deputy Director  Washington,   12/1999-10/2000
                          for              DC
                         Surface
                          Warfare--CNO
                          Staff
------------------------------------------------------------------------
U.S. Navy                Commander        Naples,       09/1998-09/1999
                          NATO's           Italy
                          Standing Naval
                          Force
                          Mediterranean
------------------------------------------------------------------------
U.S. Navy                Chief of Staff   Gaeta,        08/1996-08/1998
                          for              Italy
                         Commander Sixth
                          Fleet
------------------------------------------------------------------------
U.S. Navy                Commander        Manama,       11/1994-07/1996
                          Middle East      Bahrain
                          Force/
                          Destroyer
                          Squadron FIFTY
------------------------------------------------------------------------
U.S. Navy                Navy Training    Various       08/1994-10/1994
------------------------------------------------------------------------
U.S. Navy                Head of the      Washington,   08/1993-07/1994
                          Warfare          DC
                         Policy Branch--
                          CNO Staff
------------------------------------------------------------------------
Armed Forces Staff       Joint Training   Norfolk, VA   05/1993-06/1993
 College
------------------------------------------------------------------------
U.S. Navy                Commanding       Mayport, FL   06/1991-04/1993
                          Officer of USS
                          John Hancock
------------------------------------------------------------------------
U.S. Navy                Commanding       Newport, RI   12/1990-04/1991
                          Officer School
------------------------------------------------------------------------
U.S. Navy                Special          Naples,       03/1988-05/1990
                          Assistant to     Italy
                          the Commander
                          in Chief U.S.
                          Naval Forces
                          Europe
------------------------------------------------------------------------
U.S. Navy                Executive        Charleston,   09/1986-02/1988
                          Officer USS      SC
                          Richmond
                          Turner (CG20)
------------------------------------------------------------------------
U.S. Navy                EXEC Training    Newport, RI   07/1986-08/1986
                          School
------------------------------------------------------------------------
U.S. Navy                Naval War        Newport, RI   08/1985-06/1986
                          College
                         Student
------------------------------------------------------------------------
U.S. Navy                Assistant Chief  Mayport, FL   08/1983-07/1985
                          of Staff for
                          Material,
                          Cruiser-
                         Destroyer Group
                          12
------------------------------------------------------------------------
U.S. Navy                Executive        Key West,     11/1981-07/1983
                          Officer USS      FL
                          Gemini
------------------------------------------------------------------------
U.S. Navy                Engineer         Norfolk, VA   01/1980-11/1981
                          Officer USS
                          Caron
------------------------------------------------------------------------
U.S. Navy                Surface Warfare  Newport, RI   04/1979-12/1979
                          Training
                          School
------------------------------------------------------------------------
U.S. Navy                U.S. Naval       Monterey,     09/1977-03/1979
                          Postgraduate     CA
                          School
------------------------------------------------------------------------
U.S. Navy                CIC Officer,     Athens,          1974-09/1977
                          Damage Control   Greece
                          Assistant, and  Philadelphi
                          First            a, PA
                          Lieutenant USS  Mayport, FL
                          Vreeland (FF
                          1068)
------------------------------------------------------------------------

     10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) None.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        Surface Navy Association--Chapter President
        U.S. Naval Academy Alumni Association--Member

    13. Political affiliations and activities:

        (a) List all offices with a political party which you have held 
        or any public office for which you have been a candidate: None.

        (b) List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years: None.

        (c) Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $500 or more for the past 10 
        years: None.

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        Legion of Merit (4)

        Defense Meritorious Service Medal (2)

        Meritorious Service Medal (3)

        Navy Commendation Medal (3)

        Navy Achievement Medal

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    On March 8, 2004, I gave remarks about TSA (Leadership/Partnership/
Friendship Theme) at the National Defense University Reserve Components 
National Security Course (RCNSC) (not a formal speech).
    On March 3, 2004, I gave remarks about TSA (Leadership/Partnership/
Friendship Theme) at a DHS One-Year Anniversary Event in Minneapolis, 
MN (not a formal speech).
    On February 4, 2004, I gave remarks about TSA (Leadership/
Partnership/Friendship Theme) at a Dinner with the Metropolitan 
Washington Airports Authority Board of Director's Dinner in Crystal 
City, VA (not a formal speech)
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I am grateful for the trust and confidence that the President has 
shown in me by nominating me to this important position. While I have 
not spoken directly to the President on this matter, my career both in 
the United States Navy as well as at the Transportation Security 
Administration may have been a factor in his decision.
    As a Navy officer and as a senior leader at the Transportation 
Security Administration, I have shown a pattern of successfully 
managing and leading large organizations. During my 28-year career as a 
United States Naval Officer, in which I achieved the rank of Rear 
Admiral, I was responsible for commanding sailors and marines and 
entrusted with billions of dollars of valuable military equipment. More 
importantly, I played a key role in the defense of the strategic 
interests of the United States. Subsequently, I served as the first 
Federal Security Director (FSD) at Los Angeles International Airport 
(LAX). While at LAX, one of the busiest airports in the nation and the 
world, I undertook and met the challenge to maintain security as the 
airport transitioned from the pre-9/11 screener staff to a new, 
federalized and highly trained workforce. As the Acting Administrator 
for TSA since December 2003, I have guided TSA as it has continued to 
improve its ability to provide for security in all modes of 
transportation.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    My leadership skills, developed during a lifetime of service to 
this country, have provided a foundation for me to successfully lead 
TSA. Additionally, I bring a working knowledge of our Nation's homeland 
security organization and how transportation security factors into the 
larger agenda. I am committed to a full partnership with the many 
stakeholders in the transportation sector, including State and local 
governments, Indian tribes, private industry, and the American public, 
all of which rely heavily on a secure transportation system. I am 
working closely with Members of Congress to ensure TSA remains focused 
on preserving our freedoms while we go about our important work of 
protecting America.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain. No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    None, with the exception of my retirement from the United States 
Navy.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    There are currently no potential conflicts of interest. If any 
arise, I will immediately consult with the Designated Agency Ethics 
Official.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Received an ``Outstanding Citizen Award'' by hometown of Algonquin, 
Illinois, in recognition of achievement and outstanding commitment to 
service.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    Regulations would be reviewed based on a full consideration of the 
legislative history associated with the statutory authority for the 
regulations. If clarification concerning the intent behind statutory 
authorities would be helpful, I would seek further information from 
Congress and its committees as appropriate. In addition, I would fully 
comply with the requirements for submission of final rules to Congress 
under the Small Business Regulatory Enforcement Fairness Act.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    As a Navy officer and as a senior leader at the Transportation 
Security Administration, I have shown a pattern of successfully 
managing and leading large organizations. During my 28-year career as a 
United States Naval Officer, in which I achieved the rank of Rear 
Admiral, I was responsible for commanding sailors and marines and 
entrusted with billions of dollars of valuable military equipment. More 
importantly, I played a key role in the defense of the strategic 
interests of the United States. My undergraduate and postgraduate 
studies at the U.S. Naval Academy and the Naval War College provided me 
with an excellent background in national security affairs and 
strategies, and I frequently drew upon this educational foundation as I 
carried out my duties. Subsequently, I served as the first FSD at Los 
Angeles International Airport (LAX). While at LAX, one of the busiest 
airports in the nation and the world, I undertook and met the challenge 
to maintain security as the airport transitioned from the pre-9/11 
screener staff to a new, federalized and highly trained workforce. As 
the Acting Administrator for TSA since December 2003, I have guided TSA 
as it has continued to improve its ability to provide for security in 
all modes of transportation.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    It would be an honor to serve the United States and its citizens in 
this position of trust and responsibility. My long career in public 
service has given me an opportunity to develop the experiences, 
perspectives, and skills to successfully lead the TSA, and I believe it 
is my duty to contribute to our homeland security efforts at this 
challenging time in our Nation's history.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    Internal challenges to TSA include: (1) Enhance operational field 
focus and establish inter-modal risk mitigation planning. (2) Cut 
layers of HQ staff between the Administrator and the field. (3) Empower 
the FSD and allow for more local decision-making. (4) Make the concept 
of a Model Workplace for TSA employees a reality. (5) Accelerate 
technology to the field and reduce the dependence on the high number of 
personnel that are currently needed to provide security.
    It would be my goal in the first two years to take the following 
actions to address these internal challenges: (1) Conduct daily 
operation and intelligence briefings with Senior staff utilizing the 
Transportation Security Operations Center as the TSA operational center 
of gravity. (2) Realign the TSA HQ Staff to provide for better 
integration and to reduce the layers between the Administrator and the 
field. (3) Initiate action to allow for local testing, local training, 
and local hiring in order to facilitate the empowerment of the FSD in 
the field. (4) Constantly review issues that impact the morale and 
welfare of TSA employees and ensure leaders are held responsible for 
taking measures to enhance the Quality of Life and Quality of Work of 
each TSA employee. (5) Develop Transition plans to accelerate 
technologies to the field that enhance security and reduce both the 
number of personnel and the level of effort required to perform the 
security mission.
    External challenges for TSA include: (1) Integrating fully within 
the Department of Homeland Security in order to operate most 
effectively and efficiently. (2) Developing thoughtful Sector Specific 
Plans for the Transportation, Shipping and Postal sectors of the 
economy in partnership with other entities to more fully mitigate the 
risk of Terrorist attack. (3) Ensuring the Privacy and Freedoms we all 
enjoy as Americans are preserved as we seek out innovative ways to 
better protect America against a Terrorist attack. (4) Accelerating the 
use of technology to enhance the overall security of the Transportation 
Sector.
    It would also be my goal to address these external challenges by 
taking the following actions: (1) Imbue within TSA a culture of change 
to drive out concepts such as ``protecting turf.'' Constantly seek to 
integrate TSA activities within DHS to get the maximum use of every tax 
dollar. (2) Partner with other government agencies and the private 
sector in developing Protection Plans for the Transportation and 
Shipping and Postal critical infrastructure sectors. (3) Constantly 
review privacy issues to ensure actions are taken in a proactive manner 
to protect our freedoms as we carry out the TSA mission. (4) Develop 
transition plans for technology that can facilitate the smooth flow of 
commerce while enhancing the security of the overall process. The use 
of new technology to reduce the level of personnel needed to carry out 
a specific task can in many cases allows for a more efficient and 
effective use of the taxpayers dollar.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe I possess all the necessary skills to be successful in 
carrying out this important position.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    My view of government is that it exists to serve the citizens. In 
the United States, it is a government ``of the people'' and ``for the 
people.'' The extent of its involvement in the private sector should be 
guided by what ``the people'' decide is in their best interest. These 
interests may vary over time and among generations, and this is often 
very much a qualitative rather than quantitative process. The 
government's degree of involvement in the private sector should reflect 
the peoples' needs. Public-private partnerships are very powerful 
forces that serve the people extremely well. Elections allow the people 
to signal their needs to their elected officials and also provide an 
excellent pulse on when a government program is no longer necessary.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The mission of the Transportation Security Administration is to 
protect the Nation's transportation systems to ensure freedom of 
movement for people and commerce. Our vision is that TSA will 
continuously set the standard for excellence in transportation security 
through its people, processes and technology.
    TSA also supports the missions of the Border and Transportation 
Security (BTS) Directorate and Department of Homeland Security. BTS has 
the mission to protect national security and promote public safety by 
enforcing our nation's immigration and customs laws, providing a 
trained and effective border and transportation system defense against 
all external threats, including international terrorists, and other 
threats such as illegal drugs and other contraband, while preserving 
the free flow of legitimate trade and travel. The mission of DHS is to 
lead the unified national effort to secure America, to prevent and 
deter terrorist attacks, to protect against and respond to threats and 
hazards to the nation, to ensure safe and secure borders, to welcome 
lawful immigrants and visitors, and to promote the free-flow of 
commerce.
    Major programs and initiatives at TSA currently include (in 
alphabetical order):

  <bullet> Air Cargo Enhancements--TSA, working with U.S. Customs and 
        Border Protection, is implementing the Air Cargo Strategic 
        Plan, which includes establishing a Cargo Pre-Screening system 
        to identify ``high-risk'' cargo and working with other federal 
        agencies and the air carrier and shipping industries to ensure 
        that all ``high risk'' cargo is inspected; strengthening the 
        Known Shipper Program and implementing the Known Shipper 
        Automated Database; implementing the Indirect Air Carrier 
        certification system; carrying out procedures to secure cargo 
        during transport to the airport; training air carrier and 
        Indirect Air Carrier personnel; and ensuring compliance with 
        screening directives. In addition, TSA is studying technologies 
        for screening cargo and aggressively pursuing new technological 
        solutions. A Notice of Proposed Rulemaking is in development to 
        further strengthen air cargo security.

  <bullet> Aviation Partnership Support Plan--This program mitigates 
        congestion at passenger screening checkpoints during the high 
        volume summer travel months. The plan includes specific 
        operational adjustments and an aggressive public information 
        campaign. It is intended to ease wait times over the summer at 
        all the Nation's airports with particular emphasis on 25 of the 
        busiest airports that have the resources and relationships to 
        take maximum advantage of the plan's measures.

  <bullet> CAPPS II--Research and development of technology and 
        procedures to enhance aviation passenger prescreening while 
        safeguarding privacy rights and civil liberties.

  <bullet> Crew Member Security Training--A program to ensure that 
        flight attendants and other crew members receive consistent, 
        effective training to help prepare them to respond to terrorist 
        threats that may be encountered in-flight. It includes 
        establishing new basic security training standards and 
        developing and providing voluntary Advanced Crew Member Self 
        Defense training.

  <bullet> Explosive Detection Portals--Explosive Detection Portals are 
        being piloted at 5 airports (T.F. Green State Airport, Rhode 
        Island; Greater Rochester International Airport, New York; San 
        Diego International Airport, California; Tampa International 
        Airport, Florida; and Gulfport Biloxi International Airport, 
        Mississippi) this summer.

  <bullet> Federal Flight Deck Officer Program--A program to train, 
        arm, and deputize volunteer pilots of commercial passenger and 
        all-cargo aircraft, flight engineers, and navigators as Federal 
        law enforcement officers for the purpose of defending the 
        flight decks against acts of criminal violence or air piracy.

  <bullet> General Aviation--TSA has worked closely with the general 
        aviation community over the past two years to implement a 
        threat-based, risk-managed approach to general aviation. We 
        have put in place regulatory regimes for small and large 
        private charters, have partnered with the National Business 
        Aviation Association on a pilot project to enhance security for 
        corporate operators, and have implemented a GA Hotline that 
        serves as a linchpin for the Aircraft Owners and Pilots 
        Association's highly regarded Airport Watch Program. Most 
        recently, TSA released Version 1.0 of an Information 
        Publication titled Security Guidelines for General Aviation 
        Airports, which provides ``best security practices.'' We are in 
        the process of drafting a five-year strategic plan for general 
        aviation that will cover the remainder of this decade, 2005-
        2009. Additionally, we are developing a general aviation 
        airport vulnerability self-assessment tool that will be 
        launched later this year.

  <bullet> HAZMAT Credentialing--TSA is developing plans to conduct 
        background checks on commercial truck drivers who transport 
        hazardous materials (HAZMAT), including explosives, to protect 
        against the threat posed by terrorists transporting hazmat and 
        to maximize flexibility for the States so the issuance of 
        hazmat endorsements is not impeded by security requirements.

  <bullet> Local Hiring, Training, and Testing--Initiatives to empower 
        FSDs with greater operational authority for recruiting, hiring, 
        training, and testing in order to leverage more fully the 
        expertise and knowledge of FSDs about the needs of their 
        individual airports.

  <bullet> MANPADS Assessments--R&D efforts are underway within the TSA 
        Office of Security Technology relative to the aircraft 
        survivability posed by standoff weapons (MANPADS and Rocket 
        Propelled Grenades). The purpose of these efforts, in 
        coordination with research partners, is to develop a 
        susceptibility/vulnerability assessment in which (1) techniques 
        in enhancing commercial aircraft survivability can be further 
        explored; (2) a means to model advanced threats can be 
        incorporated into the program; and (3) lessons are learned and 
        applied towards potential threat mitigation and countermeasures 
        techniques. This work is conducted in coordination with the DHS 
        Science and Technology (S&T) Directorate's Counter-MANPADS 
        special program. Also, TSA is performing airport vulnerability 
        assessments to identify and map the areas around an airport 
        from which a MANPADS attack could be initiated and working with 
        surrounding communities to coordinate efforts of agencies 
        responsible for responding to this type of threat.

  <bullet> Privacy Training--TSA employees participate in ongoing 
        educational and training programs emphasizing their roles and 
        responsibilities for protecting individual privacy in the 
        course of their duties.

  <bullet> Rail and Transit Security Initiatives--Working with rail and 
        transit operators as well as Federal, State and local partners, 
        TSA is providing leadership in the area of rail and transit 
        security through promulgating best practices, assisting in 
        implementation of Security directives issued on May 20, 2004, 
        and developing/assessing security measures that could be 
        utilized in high-threat situations, such as through the TRIP 
        pilot. TRIP is a multi-phased pilot to evaluate the use of 
        emerging technologies to screen passengers and their carry-on 
        items for explosives in the transit and rail environment in 
        certain situations.

  <bullet> Rail Transportation of Hazardous Materials--TSA is leading a 
        multi-agency task force in the D.C. metropolitan area to 
        conduct a comprehensive security review, which includes a 
        vulnerability assessment of the rail infrastructure, for high 
        threat urban areas where chemicals classified as toxic by 
        inhalation (TIH) are transported.

  <bullet> Registered Traveler--TSA is conducting five Registered 
        Traveler (RT) pilot tests in 2004 using biometric technology to 
        enhance identity verification at the passenger security 
        checkpoint, as well as identify business processes, such as 
        reconfiguration of lines and lanes, that might facilitate a 
        secure and expedited travel experience. The tests are designed 
        to evaluate the merits of an RT program without disrupting 
        airport operations or compromising security. TSA has selected 
        Minneapolis-St. Paul International Airport, Los Angeles 
        International Airport, George Bush Intercontinental Airport/
        Houston, Boston Logan International Airport, and Ronald Reagan 
        Washington National Airport as pilot test sites.

  <bullet> Screener Partnership Program (``Opt Out'')--A program to 
        allow airports to apply for and transition to having private 
        companies provide screeners under a contract with TSA.

  <bullet> Screener Performance Evaluation and Recurrent Training--
        Multiple initiatives are underway to design, develop, 
        distribute, administer, and evaluate sound and effective 
        performance and training support directly related to the 
        screening of people and property to address threats across all 
        transportation modes.

  <bullet> SIDA/Sterile Security Directives--Revised SIDA/Sterile 
        Security Directives, as well as enhanced airport employee 
        background checks are being pursued in order to improve 
        physical security at our nation's airports.

  <bullet> Transportation Worker Identification Credential (TWIC)--A 
        pilot program underway to explore establishing a system-wide 
        common credential for use across all transportation modes for 
        personnel requiring unescorted physical and/or logical access 
        to secure areas of the transportation system.

    The major operational objectives of the Transportation Security 
Administration are as follows:

  <bullet> Awareness; ensure we gain awareness of the full scope of 
        threats and vulnerabilities, as well as the impact of 
        mitigation actions, to transportation in our domain of 
        responsibility.

  <bullet> Prevention and Protection; deter foreign and domestic 
        terrorists and other individuals from causing harm or 
        disrupting the transportation system and/or its users.

  <bullet> Response and Recovery; ensure that an agile incident 
        response capability is coordinated to swiftly and effectively 
        restore freedom of movement--as well as enabling the use of the 
        transportation system in the course of an incident.

  <bullet> Service; ensure that we serve the public effectively by 
        facilitating legitimate trade and travel.

  <bullet> Organizational Excellence; operate as a leading edge, 
        performance-based organization that consistently meets 
        performance objectives while practicing outstanding stewardship 
        of our resources.

    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    Broadly speaking, TSA must not falter in its determination and 
dedication to the objectives of the Department, the needs of the 
American people, and the security of our Nation. Recent events have 
reinforced the fact that we live in dangerous times. Last December, the 
national threat level was raised to Orange, based on concern over a 
number of potential threats to homeland security, particularly in the 
aviation sector. In February and March 2004, terrorists attacked subway 
and rail systems in Moscow and Madrid, resulting in the loss of many 
lives. Clearly, the transportation sector remains an inviting target 
for terrorist attacks. As TSA employees, it is our job to remain 
vigilant as we work tirelessly in the fight to keep our homeland safe 
and secure.
    The top three aviation sector threat-related issues and challenges 
facing TSA are: (1) the development and deployment of explosives 
detection technology at the passenger checkpoint, (2) enhancing 
security of the Sterile Areas and Security Identification Display Areas 
(SIDA) of airports, and (3) the enhancement of TSA and industry's 
capacity for efficient and effective air cargo screening.
    In addition, TSA has several organizational challenges that are 
natural for a new agency in a new department. As TSA matures as an 
organization, we will continue down the path of building a results-
oriented culture and seek out greater efficiencies where possible. For 
example, I am in the process of giving our FSDs more authority in 
hiring, training, testing, and managing their screener workforce. TSA 
must exhibit leadership through empowering its people, deploying 
appropriate technology, and seeking positive change. We will develop 
and promote a spirit of partnership with all of the stakeholders who 
are involved in protecting, operating, and using the transportation 
system. Finally, it is vital for the success of DHS and TSA that we 
inspire the trust and confidence of the American people and their 
elective representatives through our diligence, respect for privacy and 
civil liberties, and world-class standards in customer service.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    TSA has achieved its mission over the past several years. While 
there is much yet to be done as TSA pursues and enhances our many-
layered ``system of security systems,'' we have achieved considerable 
results in less than three years since enactment of the Aviation and 
Transportation Security Act (ATSA). The synergies developed through the 
creation of the Department of Homeland Security have substantially 
contributed to our success.
    At the direction of Congress and as dictated by threat, we have 
focused significant resources on strengthening the aviation security 
system. Even as we were standing up the agency, we successfully met an 
aggressive schedule to federalize the screener workforce and enhance 
security technology for the detection of explosives and other purposes. 
TSA has built a highly skilled screening force, created mechanisms to 
balance the placement of screeners in airports across the Nation, and 
reduced attrition to a fraction of its pre-9/11 levels. We have 
deployed explosives screening technology in all airports through the 
certification, purchase, and installation of approximately 1,000 
Explosives Detection Systems (EDS) and 5,300 Explosives Trace Detection 
(ETD) machines at airports throughout the country. We have trained and 
deputized thousands of Federal Flight Deck Officers. TSA has increased 
cooperation with our international partners at airports overseas and 
with air carriers that fly into and out of the United States. We have 
required more than a million criminal history records checks for U.S. 
airport workers needing unescorted access to secure areas of the 
airport, and we are working on improving the access process as part of 
our overall airport security program. Throughout this process, we have 
been successful at capturing learning and quickly applying these 
lessons to refine our training and testing methodologies. TSA strives 
to use every tool at its disposal to motivate its personnel and advance 
the security of the transportation system toward excellence.
    The flow of intelligence on terrorists, their methods, and their 
plans, has greatly improved our understanding of the threats that we 
face and helped us focus our resources on meeting those threats. There 
have been countless times when information shared with airports or 
airlines has alerted them to threats and encouraged enhanced security 
on their part.
    In partnership with other DHS components and in coordination with 
the Department of Transportation, State, local and private sector 
partners, TSA's efforts in non-aviation security over the past two 
years have focused on greater information sharing between industry and 
all levels of government, assessing vulnerabilities in non-aviation 
sectors to develop new security measures and plans, leveraging existing 
security initiatives, increasing training and public awareness 
campaigns, and providing greater assistance and funding for non-
aviation security activities.
    We are dedicated to making every effort to continue to achieve our 
mission to protect the Nation's transportation systems to ensure 
freedom of movement for people and commerce.
    9. Who are the stakeholders in the work of this department/agency?
    TSA's stakeholders are private and public sector organizations and 
associations that are impacted by policies to secure the various modes 
of transportation. TSA's principal stakeholders are organizations that 
represent the owners, operators, and interested parties associated with 
the various modes of transportation. These include, but are certainly 
not limited to, the traveling public; intergovernmental associations; 
employee organizations; air carriers; airport, port, rail, and transit 
operators; technology researchers and suppliers; cargo shippers and 
handlers; and other private sector companies partnered with TSA on 
security projects.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    As a critical economic sector in the United States, our 
transportation system is vital to our way of life. The relationship of 
the Assistant Secretary of Homeland Security for the Transportation 
Security Administration to the stakeholders noted in answer number nine 
should be a true partnership involving regular information exchanges, 
updates on developments, and mutual understanding of threats. This 
partnership allows TSA to formulate strategic policy and ensure that 
new and existing programs are responsive to stakeholders' needs and 
reflective of their operational environments. Our work with 
stakeholders creates a conduit through which TSA and stakeholders can 
inform each other about policies and actions and respond to requests 
for information. These relationships are indispensable to TSA's mission 
to protect the Nation's transportation systems and to ensure freedom of 
movement for people and commerce.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    If confirmed as Administrator of the TSA, I will be entrusted with 
ensuring the safety and security of the traveling public. At the same 
time, I will also be entrusted with ensuring the proper stewardship of 
TSA's resources on behalf of the U.S. taxpayers. Implementing an 
effective system of internal controls, requiring sound financial 
management, and ensuring compliance with laws and regulations are 
fundamental responsibilities of department and agency leaders. As an 
FSD and as Acting Administrator it has been my responsibility to verify 
that TSA's resources are used efficiently and effectively to achieve 
intended program results, while reducing the risk of fraud, waste, and 
abuse. If confirmed as Administrator, I will continue my efforts to 
lead the agency towards efficient operations and prudent use of 
resources.
    It is the role of the Administrator to ensure that TSA managers, 
both administrative and operational, are aware of and appreciate the 
requirements of the Federal Managers' Financial Integrity Act, the 
Chief Financial Officers Act, and the Government Performance and 
Results Act, as well as associated GAO, OMB, and Departmental guidance 
for management, accounting and budgetary controls. The Administrator 
must ensure that a culture of accountability and fiscal discipline 
exists throughout the agency.
    Furthermore, it is the role of the Administrator to guide the 
agency's financial performance, through the annual financial statement 
audits required by the Chief Financial Officer's Act. For the last two 
years, TSA has gone above and beyond the minimum audit requirements. 
Due to the formative nature of our organization, TSA has specifically 
requested that its external auditors perform a standalone, full scope 
audit of TSA's financial statements and notes rather than being part of 
the consolidated departmental audits. This increased level of audit 
scrutiny minimizes the overall risk of misstated financial results and 
serves to better identify management control shortcomings and risk 
areas. While the audits resulted in ``clean'' opinions, they identified 
certain material internal control weaknesses, which must be corrected 
to ensure resources are used effectively and efficiently. Currently, 
our Office of Financial Management provides to me and the other senior 
TSA leadership a monthly update that presents the status on the actions 
being taken to correct material weaknesses. As Administrator, I will 
continue to support audit initiatives and will push TSA management and 
staff to correct known weaknesses and maintain ``clean'' audit 
opinions.
    In summary, while the Administrator must maintain a primary focus 
on ensuring the agency meets its operating mission, it is also 
important that public resources are used as judiciously as possible to 
meet that mission. I will continue to push TSA to strengthen its 
management control program, earn clean audit opinions, and be a 
responsible steward of public resources.

    (b) What experience do you have in managing a large organization?
    As noted above, as a United States Naval Officer for almost 28 
years I achieved the rank of Rear Admiral, and during my career, I was 
responsible for commanding sailors and marines and entrusted with 
billions of dollars of valuable military equipment. In both the Navy 
and at TSA, I have successfully managed and led large organizations. I 
was one of the first FSDs named by Secretary Mineta shortly after TSA 
was stood up as an agency, and I served as the first FSD at Los Angeles 
International Airport (LAX), one of the busiest airports in the nation 
and the world. As the Acting Administrator for TSA since December 2003, 
I have guided TSA as it has continued to improve its ability to provide 
for security in all modes of transportation.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    I see several benefits in identifying performance goals and 
reporting on our achievement of them: (1) by doing so we improve 
accountability and the confidence of Americans in federal government; 
(2) it allows senior managers of departments/agencies to focus on the 
actual results of his or her organization's activities and services, 
thus improving the managerial and internal workings of the federal 
government; and (3) it supports Congressional oversight and decision-
making activities. It is also my view that GPRA is uniquely successful 
when compared to prior programs that tried to improve the working of 
the Federal government because it requires that agency ``results'' be 
integrated into the budgetary decision-making process.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    Privatization or organizational changes may be appropriate; 
however, they should be viewed as options among many considerations and 
solutions. GPRA reporting procedures allow those departments/agencies 
that fail to achieve their goals the opportunity to disclose the 
reason(s) for their failures. GPRA also allows those organizations to 
develop plans to achieve the goals they failed to achieve. It is my 
view that the statute provides some flexibility in this area because: 
(1) it is sometimes difficult to establish the cause and effect of a 
failure to achieve a goal (as outside influences may contribute to an 
outcome); and (2) some results will not be apparent for years. I 
support the sequence of events stated in the law and note that it has 
been Congressional practice to allow organizations to follow the 
statute's guidance on this matter. Having stated that, it is my view 
that if no improvements are noted after alternative corrective actions 
have been implemented, then as stipulated by GPRA, budgetary 
adjustments should be taken with the organization.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    If confirmed, my job would be to protect the Nation's 
transportation systems to ensure the freedom of movement for people and 
commerce. My performance goals should be linked to this mission and the 
strategic and performance goals our agency is committed to for 
successfully achieving the vision we share with the American people for 
homeland security. TSA has a suite of performance goals and measures 
designed to capture how effective and efficient we are in our 
protection of the transportation system and overall customer 
satisfaction with TSA.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    TSA faces unique challenges in protecting the Nation's 
transportation system and the American people, and I am committed to a 
Model Workplace where the best employment ideals and practices are 
exemplified. The most important resource at TSA is its employees, and 
if confirmed, I will guide TSA to continuously set the standard for 
excellence in transportation security by valuing its employees in 
carrying out our mission.
    To keep an organization headed in the right direction requires the 
ability to lead, manage, and motivate people. Throughout my career and 
as the Acting Administrator of TSA, I have encouraged open and direct 
communication with employees. I have exercised effective leadership 
through the application of sound management principles, judgment, and 
strategic vision. Effective leaders lead people by example. It is 
important to set the example if you expect to gain employee support and 
participation. For large organizations such as TSA, strong leadership 
is required to effectively carry out the agency's mission and meet its 
goals. I take my responsibility seriously and believe skills, 
abilities, and performance are enhanced by good working relationships, 
which, in turn, contribute to the foundation of a strong organization.
    In my role as Acting Administrator, I have fostered a philosophy of 
cooperation and collaboration across the organization by creating an 
environment where timely and quality data and information flow smoothly 
and effectively among the staff Together with my senior staff, we 
review in detail reports from FSDs on incidents concerning aviation 
security, as well as daily reports of incidents affecting non-aviation 
modes of transportation. I take this daily briefing very seriously and 
will use it to shape the course I would like TSA to take. Today's 
requirements call for a rapid response. Managers in the field must be 
able to think independently and creatively in response to operational 
needs. I am leading the organization in this direction by providing the 
tools, policies and support, including outsourced support, which place 
more responsibility and accountability at the local level. To this end, 
I am developing a plan that gives FSDs more authority in hiring, 
training, testing and managing their screener workforce.
    I have worked to set clear goals and objectives which are 
communicated to the entire organization.
    If confirmed, I believe it would be my duty and responsibility to 
provide the strategic focus for the organization by encouraging the 
highest possible levels of achievement in activities undertaken by TSA, 
effectively managing resources, ensuring opportunities exist for all 
through employee development programs, supporting quality of life 
initiatives, and valuing personal and professional integrity. I am a 
strong believer in respecting our covenant with the workforce. This 
covenant includes traditional themes regarding pay, benefits, diversity 
in the workforce, fair treatment and equal opportunities for 
advancement. This also includes performing work that is valuable, 
creating a ``healthier'' TSA in terms of conflict management, stress 
management, fitness and other wellness initiatives and, in general, 
creating an organization that gains the full commitment and trust of 
its workforce. I am committed to an organization that treats everyone 
with respect, fairness, openness, and equality.
    No employee complaints have been brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I am working closely with Members of Congress to ensure TSA remains 
focused on preserving our freedoms while we go about our important work 
of protecting America. I served TSA as the Deputy Chief of Staff from 
August 2003 to December 2003. An important part of my duties in this 
position involved coordinating TSA communications with Congress. I made 
every effort to ensure that information about TSA programs and 
initiatives was communicated to Congressional committees and that 
requests for information were addressed in a timely and responsive 
manner. As Acting Administrator of TSA, I have testified before 
Congressional committees, including this Committee, on several 
occasions on a wide range of budgetary and aviation and intermodal 
security matters. As the FSD for Los Angeles International Airport 
(LAX), I worked with the California Congressional delegation on matters 
of interest to them concerning security procedures at LAX, one of the 
busiest airports in the Nation. I also testified at a field hearing for 
this Committee held at LAX in August 2002, chaired by Senator Boxer. I 
also worked with Congressional Committees and Members of Congress in 
several of my prior assignments with the Navy.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    If confirmed, I would cooperate fully with the Inspector General of 
the Department of Homeland Security and welcome the Inspector General's 
recommendations for the effective and efficient management of the 
organization.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    At this time, I have no personal recommendations for priority 
legislative actions. However, I am committed to working with Secretary 
Ridge, Deputy Secretary Loy, and Under Secretary Hutchinson, and other 
officials at the Department of Homeland Security and within the 
Administration to develop any proposals for legislative action that may 
be needed to successfully carry out TSA's important security mission.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    Yes, I will see that TSA continues to allocate its discretionary 
spending in an open manner that focuses on the threats to 
transportation security and brings our resources to bear on mitigating 
those threats. TSA currently allocates its appropriated resources among 
thirty-four ``programs, projects, and activities'' (PPAs). These 
allocations are made in accordance with the direction of the Congress 
and in accordance with strategic plans of the Department of Homeland 
Security and TSA. Through the TSA Chief Financial Officer, other senior 
officials, and when required, through more formal communications, we 
will continue to keep Congress fully informed of these PPA allocations 
and any changes necessitated by operational requirements.

    The Chairman. Thank you very much.
    Mr. Frink, do you have an opening statement?
    Mr. Frink. Yes, Mr. Chairman, I do.
    The Chairman. Would you pull the microphone close to you, 
please?
    Mr. Frink. Certainly. Is that better?
    The Chairman. Thank you.
    Mr. Frink. OK.

      STATEMENT OF ALBERT FRINK, EXECUTIVE VICE PRESIDENT,

        FABRICA INTERNATIONAL, NOMINATED TO BE ASSISTANT

            SECRETARY OF MANUFACTURING AND SERVICES,

                     DEPARTMENT OF COMMERCE

    Mr. Frink. I would first like to begin by stating that I am 
profoundly aware that the U.S. Senate's constitutional 
responsibility to give its advice and consent to the President 
on Presidential nominations is one its most important 
responsibilities. As such, a Presidential nomination is one of 
the highest honors bestowed upon an American. Therefore, I am 
very truly honored.
    Chairman McCain, distinguished Members of the Committee, I 
am humbled and very proud to have this opportunity to come here 
before you today. I wish to thank the President for nominating 
me to be the first Assistant Secretary for Manufacturing and 
Services, and Secretary Evans for supporting my nomination.
    I also wish to express my deep appreciation to the industry 
associations, like NAM, the CRI, and the many other wonderful 
manufacturing organizations and service organizations, too 
numerous to mention, that have supported this nomination.
    Thank you very much for giving me a chance to actually 
introduce--well, to recognize my wife and family, who are here 
with me today. Denise has been a blessing and a source of 
strength to me. I have asked her to sell her home, to move 
thousands of miles away from friends, family, and the life we 
have known. This is a real sacrifice, and I thank her for that. 
That's nothing that you haven't done yourselves, so you know 
what that's like.
    I would like to summarize, briefly, my personal and 
professional background to help you determine how these 
experiences will affect my approach to the responsibilities of 
Assistant Secretary for Commerce and Manufacturing.
    It is not my style to talk about myself, so this testimony, 
in itself, doesn't come that easy.
    I am a man of business and industry, not of politics. I 
have never served the government before, and I'm pursuing this 
position, for a great extent, to say thanks to this country 
that's given me so much.
    I am a Hispanic immigrant, born in Chihuahua, Mexico. My 
Spanish mother, Blanche Olivares, was born in El Paso, Texas; 
my father, New Mexico; his father was German Dutch, a tulip 
farmer; and his mother was a Native American. And I'm very 
proud of that.
    I was raised in California in a blue-collar environment, 
and, very early on, my father taught me the importance of a 
strong work ethic, and I have followed his advice. My father 
also taught me the importance of an extensive education. Sadly, 
I didn't follow that advice, as I left college early to pursue 
the American dream.
    Having said that, I am convinced that that judgment has 
driven me to work harder to excel throughout my entire career. 
Nevertheless, the diversity of my limited education--such as 
training and tool engineering, mechanical drafting, and 
electronics, to name a few--has played a major role in my 
success, and, I think, will help me, if confirmed, as I go 
forward.
    About my business. In 1974, along with two partners, and 
with the help of a Small Business Administration loan from SBA, 
I founded a California company--carpet manufacturing company. 
We started with only five individual, three entrepreneurs, and 
now we employ over 400 people. In over 30 years, we have never 
experienced a major layoff.
    It's been a passion and a privilege to be part of building 
a successful organization from the ground up, and attracted 
some of the best people in the industry. Fabric International 
is generally known and ranked as the number-one high-end carpet 
manufacturer in the United States. As a matter of fact, many of 
the carpets you walk around on throughout the government 
offices were manufactured by our company. And I truly didn't 
mean that to be a commercial.
    [Laughter.]
    The Chairman. But it is.
    Mr. Frink. But it is.
    [Laughter.]
    Mr. Frink. Thank you. I'm very proud of that.
    I've devoted 30 years to this highly competitive carpet 
industry in California, and this experience also includes 23 
years of international trade experience; thus, providing me a 
global perspective, something I'll need. And I also spent 35 
years in merchandising, marketing, and developing successful 
sales teams.
    I do believe this experience brings with it practical 
experience, authenticity, and provides me with a keen insight 
into the needs of manufacturing and service sectors. These 
experiences have also provided me with an expansive background 
that's necessary to tackle the complexities of this newly 
created position.
    You know, our country's ability to create and commercialize 
new products is unmatched anywhere in the world, and that 
ability has led to unsurpassed economic growth. As we go 
forward, if I am fortunate enough to be confirmed by this 
Committee and the Senate, I pledge to make myself available to 
personally work with you on all the challenges that confronts 
us jointly as we go forward in the future.
    I believe it was my destiny that brought me to this point, 
as I did not seek this opportunity. But with your support, and 
God's help, I promise I will not let you down.
    In closing, I would very much like to thank you my family, 
my friends, and, most importantly, my wife, Denise, for their 
support of my decision to take on this assignment in public 
service. Again, I'm honored to be here. I'm proud of having the 
opportunity to serve the President, the Secretary of Commerce, 
and this Senatorial Committee, as well as the American 
manufacturers. Mostly, I'm proud to be an American and play a 
small role in serving our great country.
    I thank you.
    [The prepared statement and biographical information of Mr. 
Frink follow:]

 Prepared Statement of Albert Frink, Nominee to be Assistant Secretary 
   of Commerce for Manufacturing and Services, Department of Commerce
    I would like to first begin by stating that I am profoundly aware 
that the U.S. Senate's constitutional responsibility to give its advice 
and consent to Presidential nominations is one of its most important 
responsibilities. As such, a Presidential nomination is one of the 
highest honors bestowed on an American. I am very honored.
    Chairman McCain, Senator Hollings, and distinguished Members of the 
Committee, I am humbled and very proud to have this opportunity to come 
before you today. I wish to thank the President for nominating me to be 
the first Assistant Secretary for Manufacturing and Services and also 
Secretary Evans for supporting my nomination.
    Thank you for giving me the chance to recognize my wife Denise and 
my family who are here with me today. Denise has been a blessing and a 
source of strength for me. I have asked her to sell our home and move 
thousands of miles away from friends, family, and the life we have 
known. This is a real sacrifice. Thank you, Denise.
    I want to summarize briefly my personal and professional background 
to help you determine how those experiences would affect my approach to 
the responsibilities of the Assistant Secretary of Commerce for 
Manufacturing and Services.
    It is not my style to talk about myself, so this testimony does not 
come easy. I am a man of business and industry, not of politics, having 
never served in government before. I am pursuing this position as a 
thank you to this country that has given me so much.
    I am a Hispanic immigrant, born in Chihuahua, Mexico. My Spanish 
mother Blanche Olivares was born in El Paso, Texas. My father, in New 
Mexico. His father was German Dutch (a Pennsylvania tulip farmer) and 
his mother was Native American. I was raised in California in a blue-
collar environment, and very early on, my father taught me the 
importance of a strong work ethic, and I have followed his advice. My 
father also taught me the importance of an extensive formal education. 
Sadly, I didn't follow that advice, as I left college early to pursue 
the American Dream.
    Having said that, I am convinced that this judgment has driven me 
to work harder to excel throughout my career. Never the less, the 
diversity of my somewhat limited formal education with training in tool 
engineering, mechanical drafting, and electronics, to name a few, has 
played a major role in my success.
    In 1974, along with two partners, and with the help of a small 
business loan from the SBA, I founded a California carpet manufacturing 
company. We started with 5 individuals, 3 of us entrepreneurs. We now 
employ over 400 people. And, in over 30 years, we never experienced any 
major layoffs. It's been a passion and a privilege to be part of 
building a successful organization from the ground up that attracted 
some of the best people in the industry.
    Fabrica International is generally ranked as the #1 high-end carpet 
manufacturer in the United States. Many of the carpets you walk on 
throughout government offices were manufactured by Fabrica.
    I have devoted 30 years to the highly competitive carpet industry 
in California. This experience also includes over 23 years of 
international trade experience, thus providing a global perspective. I 
have also spent over 35 years in merchandising, marketing, and 
developing successful sales teams. I believe this experience brings 
with it a practical experience and authenticity and provides me with a 
keen insight into the needs of the U.S. Manufacturing and Service 
Sectors.
    These experiences have also provided me with an expansive 
background that's necessary to tackle the complexities of this newly 
created position.
    Our country's ability to create and commercialize new products is 
unmatched, and that ability has led to unsurpassed economic growth.
    As we go forward, if I am fortunate enough to be confirmed by the 
Committee and the Senate, I pledge to make myself available to 
personally deal with any and all challenges that confront us jointly in 
the future.
    I believe it was destiny that brought me to this point, as I did 
not seek this opportunity. With your support and God's help, I will not 
let you down.
    In closing, I would like to thank my family and friends, and most 
importantly my wife Denise, for their support of my decision to take on 
this assignment in public service. I am proud to be here. And am proud 
of having the opportunity to serve President Bush, Secretary of 
Commerce Don Evan, and this Senatorial Committee. Mostly, I am proud to 
be an American and to play a small role in serving our great country.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.): Albert (Al) 
Allen Frink.
    2. Position to which nominated: Assistant Secretary of Commerce for 
Manufacturing and Services.
    3. Date of nomination: Thursday, June 17, 2004.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: Fabrica International, 2801 Pullman Street, Santa Ana, 
        CA 92705.

    5. Date and place of birth: Chihuahua, Mexico; November 18, 1942.
    6. Marital status: (Include maiden name of wife or husband's name.)

        Married--Wife: Denise Lee (Masterson) Frink;

    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.): None.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        Pasadena City College--1961-1963
        Los Angeles City College--1963-1964

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)




    1974-Current:      Executive Vice President and Co-Founder
                       Fabrica International, Santa Ana, CA
    1973-1974:         Vice President, Sales and Marketing
                       Sunwest
                       14020 Bolsa Lane, Cerritos, CA
    1967-1973:         Director of Sales
                       Continental
                       2808 S. Vail, City of Commerce, CA
    1959-1967:         Manufacturing (of wooden products) and Sales
                        Development (carpet and drapery), Window
                        Merchandising, and Drapery Workroom.
                       Les Burns Sales
                       Pasadena, CA
                       (Part-time through college, full time as of 1965)


    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above. None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

        Executive Vice President--Fabrica International

        Investor Partner--DenRec (real estate position, passive 
        investor)

        Investor Partner--Finish Line Investments (an S Corp position: 
        Secretary)

        Investor Partner--1 Pelican Hill Road North-L.P. Real Estate 
        Project (passive investor)

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        Lincoln Club--Board Member

        Pacific Symphony--Board Member

        Orange County Metro YMCA--Board of Directors

        Latino Coalition

        Hispanic 100

        Carpet & Rug Institute--Industry Advisor

        Southern California Floor Covering Association--Club Board & 
        President

        Western Floor Covering Association--Board Member

        National Rifle Association--Supporting Member

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        7/27/2000--$500--Republican National Committee--RNC

        9/7/2000--$500--California State Republican Party

        9/9/2003--$2,000--Rosario Marin for U.S. Senate Inc.

        4/12/2004--$2,000--Bush-Cheney 2004 Inc.

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        Silver Trumpet Award, the Industry's most prestigious award--
        Southern California Floor Covering Association

        Distinguished Service, Native American Preparatory School 
        (NAPS)

        Spirit of Fabrica Award

        SBA Hall of Fame 2004 Best of the Best

        YMCA Distinguished Service 2004

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    SBA Hall of Fame Award Acceptance Speech
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    Yes. My extensive background of 31 years in manufacturing brings 
with it practical experience and authenticity that will assist in 
recognizing and hopefully removing the barriers that challenge American 
manufacturers, as well as the Service Sector.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?

        30 years of successful experience in the highly competitive 
        carpet manufacturing sector in California provide a keen 
        insight to the needs of U.S. manufacturers.

        Building a successful organization from the ground up, 
        successfully attracting some of the best people in the 
        industry.

        This experience also includes over 23 years of international 
        trade experience provides a global perspective.

        The diversity of interests and learned skills that have been 
        applied to the development of our business.

        My technical education in Mechanical Engineering & Drafting as 
        applies to tool and dye making.

        35 years of merchandising, marketing, selling, and developing 
        successful sales teams.

        In over 30 years we never experienced any major layoffs.

        Fabrica International is generally ranked as the #1 top quality 
        carpet manufacturer in the United States.

    These experiences have provided me with an expansive background 
necessary to tackle the complexities of the newly created position of 
Assistant Secretary of Manufacturing and Services.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Yes, with the exception of my DenBec passive investor partnership 
in real estate.
    I will resign as secretary of Finish Line, a small investment 
holding company.
    I will remain a passive real estate investment partner in 1 Pelican 
Hill Road North L.P.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain. None.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? None.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? None.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes, I do!
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Not 
Applicable.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes, I agree.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I was cleared of a groundless claim. In 2000 along with others in 
my company, I was the subject of a discharged female employee's 
complaint of verbal sexual harassment. There was a complete 
investigation, a documented response, and the complaint was judged as 
groundless and thereby dismissed.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.




1961                Misdemeanor Misconduct Action                Fine
1972                Reckless Driving                             Fine
1979                DUI                                          Fine
1982                DUI                                          Fine


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Fabrica sued a competing carpet manufacturer in 1981 for copyright 
infringement that evolved into a trade dress violation, which required 
extensive litigation. Eventually with overturned jury verdicts, and 
appeals, etc., we were ultimately victorious. The verdict required this 
company to remove their copied design products from the marketplace and 
we settled financial damages out of court.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.




1961                Misdemeanor Misconduct Action                Fine
1972                Reckless Driving                             Fine
1979                DUI                                          Fine
1982                DUI                                          Fine


    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Favorable.
    First is my commitment to succeed in this position.
    Secondly, it is important to me for the Committee to know how 
extremely fortunate I feel to have immigrated to this country and to be 
presented an opportunity to pursue the American Dream. I was planning 
to resign from my company after 30 years to pursue other interests when 
this opportunity to serve was presented to me. If I am confirmed, I am 
committed to put forth my very best efforts and apply every skill I 
have acquired in over 50 years of working experience (my first job was 
at 11 years of age). I truly believe there was a reason that this 
challenge crossed my path at this time.
    This appointment also presents me with an opportunity to give back 
to the country that provided so much opportunity.
    Unfavorable: None to my best recollection.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, I will to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, I will to the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, I will to the best of my ability.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    I do not believe that in my position I will not have regulatory 
drafting authority, however as Industry brings forward examples of 
overly burdensome regulations, I view my department as having 
responsibility to work with other agencies and Congress to address 
these regulatory issues, especially as it pertains to medium and small 
size companies.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes, I will.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
Professional Experience
  <bullet> My professional lifetime experience includes starting two 
        manufacturing companies--both very successful--in one of the 
        most competitive industries. Both based in California with its 
        higher cost disadvantage over competition in the South.

  <bullet> 23 years of extensive international business experience, 
        including eight years as a member of the U.S. Textile Advisory 
        Committee.

  <bullet> I will champion the competitive issues for Manufacturing and 
        Services as a voice of experience.

  <bullet> I believe my immigrant Hispanic heritage and subsequent 
        business success will provide trust, inspiration, and identity 
        to many minority owned companies.
Education
  <bullet> Let me begin by stating for the record that my one life 
        regret is not completing my college education, as I ambitiously 
        opted to enter the business sector. Having said that, I am 
        convinced that this unfortunate judgement has driven me to work 
        harder to excel throughout my career.

  <bullet> Nevertheless, the diversity of my limited formal educational 
        pursuits has played a major role in my success, i.e., 
        mechanical drafting, tool engineering, electronics, civics, 
        English composition and music, and 35 years of business and 
        manufacturing knowledge.

    2. Why do you wish to serve in the position for which you have been 
nominated?
    First, I--as much as anyone I know--have benefited from this 
wonderful country and its opportunities to achieve the American Dream. 
Secondly, my years of successful experience in the sector I will be 
serving has prepared me for this challenge. Thirdly, because I believe 
I can be effective and make a difference.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    If confirmed, my initial goal will be to develop an understanding 
of the people, the department, and the programs that constitute the 
Department of Commerce.
    Following that, I plan to focus my energies to the highest 
priorities of the over 50 initiatives of the Manufacturers Report.
    If confirmed, I will bear responsibility to work with the Secretary 
of Commerce and the Chief Financial Officer to ensure that proper 
management and accounting controls are in place. Together we will be 
responsible for preparing an annual accountability report which groups 
together in one place all legislated financial management reports.
    Develop an infrastructure that will serve the next incoming 
Secretary.
    While the above is in process, I will begin addressing the over the 
many American manufacturing initiatives, along with the President's 6 
Point Plan for the economy.
    It is important to state that I will be focusing on the highest 
priorities of the Administration, Congress, and the Manufacturing 
Council's recommendations.
    Although the Manufacturing Sector represents the highest priority 
in terms of focus, the Service Sector still represents the largest 
component of the U.S. economy at approximately 75 percent of the 
Private Sector CDP, and supporting approximately 86 million jobs, I 
will work closely with DAS Douglas Baker to accomplish the following 
their major issues/initiatives:

  <bullet> Travel and Tourism Promotional Campaign

  <bullet> U.S./Japan Tourism Export Expansion Initiative

  <bullet> Integrity of the Statistical Infrastructure for the Tourism 
        Industry

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Formal academic financial and economic, which I will counter by 
surrounding myself, as I have in the Private Sector, with the most 
capable people to assist making me effective.
    Also, I do not have experience serving in the government, but I 
will apply my best efforts to acquire the knowledge throughout the 
confirmation process and in the early months of my service.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe that the United States government is charged with the 
responsibilities defined within the Constitution, such as, but not 
limited to, national defense, the safety of U.S. citizens, supporting 
an economic system conducive to the growth of the U.S. economy, and 
managing foreign policy. Government is also responsible for supporting 
American business in the global marketplace, supporting and monitoring 
fundamental research to preserve the health and technical advancement 
of our society. The government should also be responsible for managing 
our natural resources and protecting our environment.
    Specifically, with respect to activities in the Department of 
Commerce, government should play the role of encouraging the great 
American economic system to operate at full efficiency to the benefit 
of all citizens. Government regulation should provide appropriate 
limits on private sector activity but should be utilized sparingly. 
Environmental standards, workplace safety, anticompetitive behavior, 
proper financial reporting, and the like should be governed by 
appropriate regulatory standards. Such regulation should ensure the 
safety, fair treatment, and sense of well being for all U.S. citizens. 
I believe it is also important that all regulations be constructed and 
updated so as to recognize the tremendous changes that have occurred 
and are likely to occur in society at large. For example, many of our 
regulations and laws were developed at a time when American commerce 
dominated the world. With rare exception, such domination no longer 
exists. Global competition dominates the world landscape and U.S. 
regulations and laws should recognize that. Similarly, the rapid speed 
of technological change is breathtaking in speed and grandeur. 
Legislation and regulation will be hard pressed to keep pace, but every 
effort must be made to do so.
    When should society's problems be left to the private sector?
    To the extent possible, the U.S. regulation and law should not 
stifle creativity and innovation nor over regulate the development of 
new products. Innovation is an American trait that is unsurpassed 
globally. Over regulation and legislation can only serve to compromise 
that process and should be administered sparingly.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    As Assistant Secretary of Commerce for Manufacturing and Services, 
my primary mission will be to advance the interests of U.S. 
manufacturing and service industries and their workers.
    To fulfill my mission programmatically, I would insure that the 
industry sector agencies are responsive to the needs of industry for 
domestic and international needs.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?

        1. Establishing an efficient structure that will insure success 
        and provide an organizational base for the future of this 
        Department/Agency.

        2. Working with the Administration and Congress to effectively 
        remove barriers that will help unleash the potential of 
        America's manufacturing might, and create skilled, well 
        compensated, job opportunities.

        3. Reach out and stay in contact with the industry to 
        understand the evolving challenges to U.S. competitiveness to 
        insure timely response by policy makers.

    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    This is a newly created division with no prior reference to its 
achievements.
    9. Who are the stakeholders in the work of this department/agency?
    At the end of the day the American citizens, the government, and 
all of its departments/agencies are the intermediaries or 
representative stakeholders.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    As Assistant Secretary of Commerce for Manufacturing and Services, 
I am responsible first to the Secretary of Commerce and with him to all 
American citizens, and then intermediaries or representative 
stakeholders. First, we are responsible to the President and the 
Executive Branch of the Federal government for implementing the 
President's policies to the best of our ability. Second, we are 
responsible to Congress and its various committees from whom we receive 
financial support and legislative requirements and to whom we are 
obliged to report our progress and to respond to suggestions and 
criticisms.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (1) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    If confirmed, I will bear responsibility to work with the Secretary 
of Commerce and the Chief Financial Officer to ensure that proper 
management and accounting controls are in place. Together we will be 
responsible for preparing an annual accountability report which groups 
together in one place all legislated financial management reports.

    (2) What experience do you have in managing a large organization?
    None, other than my experience at Fabrica International. However, 
with few exceptions, I believe the same management principles apply 
regardless of scale.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (1) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    If you are an achiever, goals are essential to drive progress that 
leads to success. People perform at their best when they know the 
vision and mission of their position and that the success of that 
vision/mission is dependent on all the individuals that drive the 
progress.

    (2) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    Replace responsible party or parties. Analyze cause of failure. The 
government should evaluate and determine if the goals were realistic 
and achievable. Was there sufficient infrastructure in place? Determine 
if there was leadership failure.

    (3) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    It is my goal that my performance will be viewed as having 
performed to the expectation of bringing private sector experience to 
this position in an ethical, inclusive, results-oriented manner of 
performance.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?

        I follow the model standard that has serve me well throughout 
        my career

        Lead by example

        Bring passion to the tasks at hand

        Exhibit a strong work ethic

        I believe in establishing attainable goals. Assign 
        responsibility, teach people to take ownership, do not micro-
        manage, measure progress, reward results.

        To the best of my knowledge, I am not aware of any complaints 
        beyond the one previously mentioned of which I was cleared.

    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I have had no prior working relationship with Congress or its 
committees.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The Inspector General, as I understand it, has a role of 
investigating any instances of fraud, waste and abuse that are thought 
to exist within the Department. The Inspector General then has an 
obligation to report his/her findings to the Secretary and to Congress.
    I hope to develop a relationship of trust with the Inspector 
General of the Commerce Department so that he/she would communicate 
frequently and freely with the Secretary's office to effect prompt 
remedial action, if warranted.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    Some priorities are: Competiveness such as litigation reform, 
health care reform, energy reform,
    The full details of needed reforms can be found in the 
Manufacturing in America report released by the Department of Commerce 
in January 2004.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    As I understand, the bulk of the budget for my position will be 
assigned to overhead. The discretionary funds are to advance the policy 
objective of my office to support the work of the Commerce Department 
on behalf of the Manufacturing and Service Sectors, of their 
industries, and the newly created function of providing industry 
analysis support for sound policy making.

    The Chairman. Thank you, sir.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Let me begin with you, Admiral Stone. My colleague, Senator 
Dorgan, is here, and he and I have teamed up on the butane 
lighter issue, so I think I'm going to let him start with that.
    But let me, if I might, begin with the CAPPS-2 program, 
because obviously this is a program that will touch the lives 
of millions of Americans. After a year of pretty pointed 
questions that I have been asking your agency, I received, 
today, and I'll just quote, ``At this point, the proposal for 
aviation passenger pre-screening is being reshaped.'' I asked a 
variety of questions, and that was your response. So, for all 
practical purposes, it sounds like you all are back to the 
drawing board with respect to the proposal. And I think I'd 
like to begin by having you tell us, at this point, what, in 
your mind, is this program going to do? And what, in your mind, 
is this program not going to do? Because that, I think, is what 
people want to know from you.
    Admiral Stone. Yes. The CAPPS-2 program, indeed, is, right 
now, undergoing a reshaping. It is not going forward as 
previously briefed. Previously, CAPPS-2 has been briefed that 
it would have four pillars. The first pillar would be a 
verification of IDPs, where we would bounce the name off a 
commercial data base. The second pillar would be, we would take 
that name and run it against the Terrorist Screening Center 
data bases to see if it matched a terrorist list. And then the 
third pillar was going to be a risk assessment, in which we 
would develop algorithms to determine the degree of risk, so 
that we could then make a determination on a selectee at the 
checkpoint.
    Currently, at today's airports, under CAPPS-1, roughly 16 
percent of the traveling public is selected to go to secondary 
screening and be wanded and have that type of additional 
layered screening. CAPPS-2 is envisioned of being able to 
reduce that to about 5 or 6 percent, and that would be done by 
this Risk Assessment Algorithm, which is the third pillar. And 
then the fourth pillar was going to be a database of those that 
are wanted for violent crime, outstanding wants and warrants.
    As a result of a GAO report on privacy, as well as our own 
concerns over privacy, to make sure that we had in place all of 
those things that have to do with what is first and foremost 
for the Department, under Secretary Ridge's vision statement, 
which reads, ``Preserving our freedoms, protecting America, we 
secure our homeland''--the first phrase being ``preserving our 
freedoms--the Department and TSA feel very strongly that we 
should not move forward on any program that in any way 
infringes on the preserving of our freedoms. That's first and 
foremost.
    And so, thus, this effort to reshape and repackage and look 
at CAPPS-2 to find out what we should be doing there so that we 
can, one, enhance security----
    Senator Wyden. What are--because I know that my time's 
short----
    Admiral Stone. Yes, sir.
    Senator Wyden.--what are the major aspects of this 
reshaping program? You've described what the program used to 
consist of. What are the major aspects of the reshaping that 
are now taking place?
    Admiral Stone. Right now, what the major aspects are, to 
look at those four pillars and find out which one of those 
pillars needs to either be curtailed or eliminated, and then 
the program still result in an enhancement of security and an 
improvement of throughput at our Nation's airports to reduce 
the number of secondary screenings. So those are the two 
initiatives that this repackaging and reshaping are focused on.
    Senator Wyden. Well, are you, for example, changing the 
risk-assessment portion of the process?
    Admiral Stone. All four of those pillars are being 
revisited to be reshaped to see what works best.
    Senator Wyden. When do you expect that this will be 
completed? Because I think this has been, sort of, like the 
marquee at the old movie house, ``Coming Soon,'' and then it 
just kind of never gets there. And people, at this point, want 
to know, with some predictability, when this is going to be 
operational.
    Admiral Stone. Well, there is a sense of urgency on this 
issue to get it repackaged and reshaped. I would anticipate, 
here in the coming weeks, we'll have some sort of decision here 
within the Department on how to move forward with a program 
that both enhances security over CAPPS-1, as well as it 
enhances the throughput at the checkpoints.
    Senator Wyden. So given the fact that this is a fundamental 
reshaping, you would put it back in the Federal notice--in the 
Federal Register sometime in the next few months?
    Admiral Stone. It would depend on what the reshaping looks 
like and what those requirements are, but we'll certainly--the 
focus it, as it should be, is preserving our freedoms and 
privacy, and, thus, a number of other initiatives that we've 
undertaken at TSA along the privacy front--hiring a privacy 
officer, inculcating Privacy Act training for all people in the 
field and at headquarters--that preserving of freedom----
    Senator Wyden. What do you think the public deserves here? 
The frustration in the past has primarily been that people have 
been given these, sort of, general statements of goals, which 
you have outlined again this afternoon. Nobody objects to the 
goals. Everybody wants to make sure that terrorists don't get 
on airplanes, and everybody wants to be sensitive to freedoms. 
But we've got to have more than goals. What do you think that 
the public deserves in this area?
    Admiral Stone. I think, first and foremost, they deserve a 
program that is thoughtfully reviewed to ensure that privacy 
and preserving of freedoms is not trampled on, and that's 
exactly what we're doing. We're making sure that we're very 
careful, as we should be, about looking at this and making sure 
that it's reshaped and repackaged with that to be first and 
foremost.
    And then what's the expectation the public should have is a 
system that's better than CAPPS-1, that brings it within the 
government--currently, that is handled by the airlines, so 
there's a degree of additional security that should be enhanced 
by CAPPS-2--and also a system that reduces the number of people 
that are looked at. Right now, with 16 percent of folks being 
looked at for secondary screening, that's too high a number.
    So a thoughtful program which gets at improved ID, also 
enhancement of security, and then reduction of number of people 
looked at, I think, is the end state that we'll see in the 
product that's delivered.
    Senator Wyden. My time is up. I just hope that you do a 
better job of explaining it to people. You don't need to go 
through these complicated risk-assessment formulas, but the 
public does have a right to have some sense of how this program 
is going to work, and they didn't have that in the past.
    Also, because my colleague, Senator Dorgan, is going to ask 
about it, we very much want to see you review this question of 
the butane lighters. We know you're looking at the prohibited 
items list, but certainly Robert Reid provided a wake-up call 
for the kind of policy Senator Dorgan and I want, and I hope 
we'll see it under your leadership.
    I thank you.
    Admiral Stone. Thank you, Senator.
    The Chairman. Senator Wyden, we'd be glad to have a second 
round if you'd like.
    Senator Lautenberg?
    Senator Lautenberg. Thanks.
    Admiral Stone, we've been looking now, for some time, over 
the manifest of the exodus of the Saudi Arabian citizens from 
the United States after--immediately after 9/11. And while 
inquiring about the circumstances of the airlift, my staff was 
told that TSA would have to approve the release of any 
information in the hands of airports and fixed-base operators. 
But this event happened substantially before the formation of 
TSA, and didn't involve matters of current national security. 
What exactly is TSA's role in clearing information concerning 
the Saudi airlift?
    Admiral Stone. It's my understanding we have a joint 
responsibility, some of that material residing within the FAA 
organization. And so depending on what the particular item is, 
it might fall under the purview of FAA or TSA. Our job is to 
review that and find out what the legitimacy of the request is, 
and then act on it.
    Senator Lautenberg. Yes, well, what we'd like to find out, 
very simply, is, How is it that these people were permitted to 
go out of the country--many of them with the name bin Laden, 
and one of them in particular as the sponsor of an organization 
that had, according to FBI reports, significant terrorist 
connections and, you know, in an investigation of a crime, and 
we haven't ever seen one worse or as big in America as 9/11--
why is it that these people were released, at the time that 
they were, to go ahead and leave the country? And it's a 
bothersome thing, and we don't seem to be able to get any 
answers. So I'd appreciate it if you would look into that 
fairly promptly and let us know what's happening.
    Now, in your statement, you talked about your chairing a 
review of the intelligence assembled of the previous days, and 
you say, ``We coordinate intelligence threats and risk 
assessments.'' Do you share it with airports? Who does the 
information get shared with, principally?
    Admiral Stone. We share it with all of--what we call 
stakeholders, all those that have an interest in the six modes 
of transportation that we, as the sector lead for 
transportation, deal with--so highway, mass transit, rail, 
pipeline, aviation, maritime. We share with those folks. We 
send it out that day if it pertains to a particular sector. And 
there are different ways in which we do that. If it has to do 
with the airlines, we'll send that through our principal 
security inspectors directly to the airlines. If it has to do 
with--those that have to do with the maritime arena, we'll 
coordinate it through the Coast Guard to ensure it gets 
disseminated properly.
    We also hold a weekly teleconference, which I chair, with 
all six stakeholder groups from all those modes, in which we 
provide an update, intelligence assessment. Also, we have 
public education initiatives, any advances in----
    Senator Lautenberg. So the airports are current with the 
information that you have, and they're included in the security 
standing that we have, at the highest levels.
    Admiral Stone. Yes, sir, we send it both through the AAAE/
ACI organizations for dissemination, as well as to our Federal 
security directors at the airports.
    Senator Lautenberg. I wonder if you could comment on the 
effectiveness of the color-coded homeland security assessment 
system? There was a report due to Congress 7 months ago this 
week, alerting the public in a safe and instructive manner to 
the threats so that we're not all just terrorized by 
information. And I'm worried about the fact that DHS is not 
taking the issue seriously enough in a review of what it is 
that goes into the color coding and how do we deal with it. You 
know, it's not specific enough that it relieves people of 
worry, but it is broad enough to scare the devil out of them. 
And I would hope that we can get something better. We heard 
from Secretary Ridge last week, in a private briefing reserved 
for Senators, and then we heard Secretary Ridge, in the 
afternoon, describe what went on at the meeting, and I'm not 
sure where we come out with these alert problems, but they have 
to be looked at and defined more clearly, I think.
    Admiral Stone. Yes, sir. And I think the direction we're 
headed, as reflected last February, late January, when the rest 
of the country went from orange to yellow, we kept a number of 
airports at a higher tailored orange level, and that's been--
when we deal, right now, with future--if we were to go to a 
higher threat level, what we've done, instead of having an 
airport, like Des Moines, go to the same orange measures that 
LAX goes to, what we're working right now is to have that 
tailored for each particular airport, based on the Federal 
security director partnering with the airport and the local 
officials. So the direction, certainly TSA, under the 
Department's direction, is headed is to go to tailored 
responses in every opportunity we can.
    Senator Lautenberg. I'm reminded that the data that we got 
about this organization, this WAMY, which is the World Muslim 
Organization--Youth Organization, the information that we had 
was not directly from an FBI report, but referring more to 
media reports that one of the principals, carrying a bin Laden 
name, was very much involved with the organizations--the 
terrorist organization Hamas, as well as the others.
    And I close, Mr. Chairman. Mr. Frink, you've got an 
important post that you've been appointed to. We want you to do 
well. What would you describe as the principal thing that you 
would do to spur the manufacturing economy in the country?
    Mr. Frink. First, speaking to Chairman McCain, it is a 
daunting task that's before me. I think the initial effort is 
going to be to get--well, first of all, it has to be a main 
advocate for manufacturing, a spokesman. The manufacturing 
sector has never had a lead spokesman for their cause. I hope 
to begin that process.
    Senator Lautenberg. What would you do, specifically, if I 
may ask? What would--how would that induce the manufacturing 
sector? Do you think, kind of, leading the cheer, or is there 
more to it than that?
    Mr. Frink. Well, I think leading the cheer is important; 
however, I think there has got to be a beef there, too, and not 
just sizzle. And I think, to that end, I'm going to be working 
closely with all of the advocates of manufacturing. There are 
associations that have been the voice of manufacturing, and 
they have issues that they've tabled that have been considered, 
some of the barriers that are in place for--in terms of the 
manufacturing, having to deal with that. There's going to be an 
effort immediately to work on the initiatives that have been 
established by a committee that has gone around the country, 
made 20 visits to manufacturing sites to hear, get feedback. 
And one of my first obligations will be to work on those 
initiatives, which are exactly--speaking to what your question 
is, it's going to--they're going to be addressing the multitude 
of issues that are in place, some of which is reducing the cost 
of healthcare, tort reform, areas such as that. There is just--
there are, like, over 50 tasks on the table to help 
manufacturers become competitive.
    I think the overriding, or under-riding, message is to make 
America the most competitive place to do business. And as 
industry flourishes, jobs and everything else goes with it.
    Senator Lautenberg. Thank you.
    The Chairman. Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    First, let me say I intend to support the nomination of 
both of you, and I think you're----
    Mr. Frink. Thank you.
    Senator Dorgan.--you are men of considerable talent, and I 
appreciate your willingness to serve our country.
    I didn't come so much to ask questions, because there's 
seldom an opportunity to talk to you once you're confirmed. And 
I know you'll answer your phone calls, but I want to make a 
couple of comments, because both of you assume responsibilities 
that are significant.
    Mr. Stone, first, with respect to you, I want to show a 
couple of charts. I don't know where the charts--oh, there they 
are. That's with respect to the butane lighter issue that Mr. 
Wyden raised. As you know, the rule was changed from being 
silent on allowing butane lighters on airplanes to 
affirmatively saying you can take two butane lighters and four 
books of matches on an airplane. This says, Air Safety Week. It 
had--Richard Reid had a--the shoe-bomber--he attempted to 
ignite the bomb with a smokeless, odorless butane lighter. Had 
he done that, rather than matches, which called it to the 
attention of other passengers, that 767 may well have been 
blown out of the sky. The FBI, in fact, said that. The FBI 
said, had he had a butane lighter--and here is the direct 
quote, this is from the FBI--``The belief is now that if he had 
had a lighter and not a match, the thing would have 
detonated.'' So, so much for butane lighters on airplanes. And 
yet that is the current rule.
    Here is a story about a Delta Airlines flight from Los 
Angeles to New York diverted to Salt Lake City after a man with 
a butane lighter alarmed flight officials. Here's a--Qantas Jet 
police recovered an aerosol can and a cigarette lighter. They 
suspect the assailant intended to use them as a flame thrower 
to disable pilots once he got in the cockpit.
    I'm telling you, I think it is nuts to have two butane 
lighters and four books of matches go on an airplane, 
especially when we've just been warned that terrorists, 
potential terrorists, want to use stuffed dolls or stuffed 
pillows with incendiary devices. And the response Senator Wyden 
and I got from TSA, it said that many individuals carry 
lighters that of great personal value or sentiment. I mean, I 
don't know of anybody that's sentimentally attached to a BIC 
lighter.
    [Laughter.]
    Senator Dorgan. But this is about serious issues dealing 
with homeland security and air safety. And Senator Wyden and I 
will both be talking to you, but I didn't want to miss the 
opportunity to talk to you about that now.
    Admiral Stone. Yes, sir.
    Senator Dorgan. One other point. My colleague, Senator 
Lautenberg, raised an issue that I think the public has been 
dis-served on, with respect to press inquiry and others, I 
might say, and that is the six secret flights that left Boston 
with 142 passengers, 30 of whom were questioned. The number two 
person of the FBI says no one--no one--was subject to serious 
interrogation.
    There were 26 bin Laden family members; among them, 
Abdullah bin Laden, a cousin of Osama bin Laden. And, 
incidentally, he was of notice to the FBI, and they didn't want 
him to leave.
    Mr. Richard Clarke said, ``Well, the request to have these 
folks leave on six secret charter flights was approved at the 
highest levels.'' He said he wasn't sure who. Now, this is 
testimony before the Judiciary Committee, ``I'm not sure who, 
but it was either the Chief of Staff of the White House, or the 
State Department.''
    And then he testified, under oath, before the 9/11 
Committee, and he said, ``Well, I actually approved it, but 
only after the FBI approved the flights and authorized the 
flights.''
    The FBI then said publicly, ``We did no such thing. We 
didn't authorize the flights.''
    Mr. Clarke said, ``And, by the way, they--all the 
passengers were cleared.''
    The FBI, the head of counterterrorism, says, ``No such 
thing happened. In fact, only 30 were questioned, and, of them, 
there were no serious interrogations.''
    And we know at least two of them, at this point, that were 
of interest to the FBI and had ties to terrorists, or potential 
ties to terrorists.
    And the 9/11 Commission says something that's very 
interesting, because they're parsing this, as everyone else is. 
The question is, did any of these people have ties to the 9/11 
terrorist incident? ``Don't know.''
    But the broader question is, Did any of them have ties to 
terrorists groups or the financing of terrorist groups here or 
anywhere around the world? That's the question. And no one is 
seriously investigating it.
    And so I did not know my colleague from New Jersey was 
trying to get the passenger manifest list, but they ought to be 
made available. And if--let me add my name to his request, and 
you will soon receive from me a request for all of the 
passenger manifest list, as well, because there ought to be 
accountability for that.
    Now, thank you, that's therapeutic for me to say that to 
you, Mr. Stone, and you--I wish you well in your job. Your job 
is an important job, and I want you to succeed, because if you 
succeed, we will succeed in this country in safeguarding the 
lives of the American people.
    Mr. Frink, let me say this to you. We have a $470 billion 
trade deficit. And I want you to succeed, as well. But you 
won't succeed on healthcare and, you know, lawsuit issues. That 
wouldn't have saved Huffy Bicycles. They were paying $11 in 
Ohio to good workers, and they're now paying 33 cents an hour 
to Chinese workers to make Huffy Bicycles. They work them 7 
days a week, 12 to 14 hours a day. And the reason Huffy left 
this country was because of that. It wasn't about all these 
other issues. The little red wagon, the Radio Flyer, 100 years 
it was in America, and it is now being produced in China.
    Now, the question is, Are we going to be serious about 
standing up and insisting on fair trade requirements?
    And I want to mention one issue to you--if I have time, Mr. 
Chairman. We just did a bilateral trade agreement with the 
Chinese 2 years ago--and I'll bet most in this room don't know 
this--our trade negotiator agreed with the Chinese, a country 
with whom we had a $130 billion trade deficit--our negotiator 
agreed with them that, after a phase-in, if there is automobile 
trade going back and forth between the U.S. and China, we would 
agree that they could have a 25 percent tariff on U.S. 
automobiles sold in China, and we would have a two-and-a-half 
percent tariff on Chinese automobiles sold in the U.S.--a 
country with whom we have a giant trade deficit. Our negotiator 
said, ``I'll tell you what, China, you're welcome to put a 
tariff that is ten times higher on U.S. cars that we intend to 
sell in China than we would put in Chinese cars we want to sell 
in the U.S.'' Unbelievable. I don't know who did it. I'd like 
to find their name.
    But the first step, it seems to me, in dealing with the 
manufacturing sector and dealing with trade and the Commerce 
Department, is to stand up for American producers and demand 
fair trade. Demand fair trade. I'm not suggesting you be a 
protectionist. I'm not suggesting building walls. But I'm flat 
sick and tired of seeing giant trade deficits that come in 
bilateral relationships between us and Korea--yes, us and 
Japan, us and China, us and Europe. I'm sick and tired of 
seeing it happen, because our producers are disadvantages, and 
our employees are disadvantaged, because of the rules of trade. 
And I'm telling you, there's a lot of it going on.
    So I'm going to support your nomination. And I came to talk 
to both of you about it, only because I just feel strongly 
about both of these areas. And I want you both to succeed.
    But especially on international trade, Mr. Frink, all we 
hear up here is chanting and a mantra. We've been hearing that 
for years. The trade deficit goes up and up and up and up. And 
you can make a case that the fiscal policy budget is a deficit 
we will repay to ourselves. You can't make that with a foreign 
trade policy deficit. Our trade deficit is a deficit that we 
will repay ultimately with a lower standard of living in the 
United States. It is dangerous, and we must get our hands 
around it and deal with it.
    So, Mr. Chairman, I thank you for allowing me to vent just 
a minute with respect to these two nominees, but, as I said 
when I started, I intend to support their nominations because I 
think they are men of considerable talent, and I wish them 
well.
    The Chairman. Well, I think they--if they'd like, they'd 
have an opportunity to respond, beginning with you, Admiral.
    Admiral Stone. Yes, sir. TSA fully intends--and I intend, 
personally--to review the issue related to the lighters and the 
matches, and to make a risk assessment on that, based on the 
criticality of the assets that we have, the vulnerability that 
was mentioned here, as well as the overall dynamic here of 
making a risk-based decision on what should and should not be a 
prohibited item. And so I pledge to take that on and report 
back to you.
    Thank you, sir.
    The Chairman. Mr. Frink?
    Mr. Frink. First of all, thank you very much for your 
support. I will absolutely do my best not to let you down.
    I come from the private sector. We've done business in 
foreign countries for 20 years. I take a considerable amount of 
pride that a company our size reached into an international 
market when it was not really that common for especially a 
company our size. I, many times, when working opportunities 
around the world, I have--I always wished that all the barriers 
for trade were down, because I felt we needed to have an even 
playing field.
    I truly believe what I have been taught in the short time 
in working with the Department of Commerce, is that the 
President and the Department are all on the same page with 
regard to wanting to level the playing field. I believe 
passionately to enforcing the laws that are in place, and I 
would support every effort to do that. I think that any foreign 
companies that do not play by the rules should be dealt with in 
a very firm manner in relation to their not staying within the 
guidelines of a fair arrangement.
    As I went around the world and did business, I have found 
that part of our success--a great part of our success--was 
raising the level of our value, rather than expecting any areas 
to help us.
    I'm very much a believer in branding. We built a brand name 
for our company, and the branding actually became a strong 
aspect of our success. People were paying more to do business 
with us. So, whereas, in some cases, maybe I would have liked 
to have worked the tariffs down, and some of the barriers, I 
didn't that option, so I worked at building our reputation, 
built a name where we have done projects in--I think we've done 
projects overseas to the tune of a million dollars, and they 
paid more for our--in our world, carpet is sold by the yard; in 
their world, it's sold by the meter--some places have said 
they've paid more for our carpet per meter than they in their 
land cost. And I think that's been a byproduct of just the 
success in building our brand identity.
    Some companies don't have that in place, and need a 
advocate to help them succeed. I won't shirk that 
responsibility. I'll do everything I can. And, with your 
guidance and your help, there's--you probably have some 
passionate reasons or beliefs that you have with regard to 
leveling that playing field--I hope to be an advocate for your 
views, as well.
    The Chairman. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. That was quick, Mr. Chairman.
    Thank you, and I certainly intend to support both nominees 
here today for both very critical and significant positions.
    Mr. Frink, let me just start with you, because we've been 
long awaiting for this position to be filled, and it is an 
essential position to help and bolster the manufacturing sector 
of our economy. The manufacturers have been hard hit, and 
that's certainly in my state of Maine, when we've had, you 
know, one of the highest percentages of manufacturing job 
losses in the country over the last few years. And so this 
position becomes ever more important to have a unified, 
consistent voice at the highest levels on behalf of the 
manufacturing sector. And I think you understand that from your 
own position and your background as a small-business owner.
    One of the critical programs that has been beneficial to 
manufacturers in America has been the Manufacturing Extension 
Partnership, and, regrettably, it was reduced by more than half 
over this last year, in the funding process. What is your 
position with respect to this program, and how do you expect to 
address it in the future, with respect to the funding of this 
program? Because I have to say, I was extremely disappointed 
that we lost this critical funding, that it's been reduced from 
$109 million to $39 million. And hopefully we can reverse that 
course for the next fiscal year. But it has been a vastly 
successful program for manufacturers. So can you tell me what 
your position is and what your views are on this program?
    Mr. Frink. Yes, Senator. I have not heard anyone say 
anything but good words about the Manufacturers Extension 
Program. It seems to have unilateral support. In short, it's 
working, it's helping a lot of manufacturers. And I don't--with 
regard to budgeting and why it has been affected accordingly, I 
don't have that knowledge and answer. I do know that--I'm 
assuming, I guess, to some degree, that there were cuts made 
across the board, and that may have been one that was in that 
category.
    What I would say, though, is, from a business perspective, 
you make business decisions under a guise or a policy of what 
we used to--what we call, our company, limited bullets. If you 
have so many dollars to spend or so much ammunition, you put 
them where they'll do the most good. And what I will be doing 
is working to understand what all of the benefits of MEP and 
trying to make--push decisions that--in the area where the 
greatest results are achieved. That's if I'm--if there is 
limited dollars for me to work with, then you make what you 
have more effective.
    But from what--I think, in the spirit of your question, I 
think it's--from what I can see, it's a wonderful program, and 
I hope that it continues to render results that I can support.
    Senator Snowe. Well, you know, it's interesting--and I will 
obviously want to talk to you further in the future about this 
program, because I do believe that we need to reverse, you 
know, this inadequate funding for this program, because, by all 
accounts, it has been incredibly successful. In fact, a survey 
that was done by a group in this--in manufacturing, found, in 
Fiscal Year 2002, that the investment--it was $106 million in 
the program--generated $2.8 billion in increased sales, and 
retained 35,000 workers, resulting in $681 million in cost 
savings, and $941 million invested in new plants and equipment.
    So I do believe that it has tremendous benefits for 
manufacturers, and has been, you know, a very effective 
program, across the board, and we need to be able to help our 
manufacturers, and this is one program to do it, at a time in 
which, you know, we've made it our priority. I mean, hence, 
this position that has been newly created that you will be 
serving and paving the way. And so, therefore, it doesn't make 
any sense to contravene, you know, the direction of placing 
manufacturing as the highest priority by undercutting this 
particularly effective program. So I hope we can work in the 
future on this, because I do believe that it is a program that 
needs to be funded, at least to the level that was provided for 
in the past, of $106 million.
    I want to--one other issue; there are many, but I won't--
but one of which I do want to get into--is the issue of China, 
which obviously--China's trade deficits and the trade barriers 
that have been established, its unwillingness, inability, or 
whatever the case may be, to comply with the requirements and 
the commitments that China made to be a member of the World 
Trade Organization has had tremendous effects on our 
manufacturing sector in Maine and throughout the country. And 
we recently, the Commission--there was a Commission that 
studied, for example, the exchange rate, as we know, that China 
has been controlling, the value of their currency, vis-a-vis 
our dollar. What's your view on this subject? And what types of 
actions do you think that we should be taking, or could be 
taking in the future, to persuade China to live by its 
commitments in the WTO?
    Mr. Frink. Well, as I said earlier, I truly believe that we 
should--that I will be an advocate of enforcing all of the 
rules that are in place, and holding anybody accountable to an 
agreement that they've made. That's just what I've been about 
all of my life, and how we've done business.
    As to what--how I would assess their--how they have dealt 
with us in relation to the WTO, I think, as my company--it was 
a week ago I was in the private sector, and at my desk trying 
to figure out how to sell more carpet.
    [Laughter.]
    Mr. Frink. And there's so much for me to learn, but I am a 
quick study, and I will have a better answer for you on that as 
I get more up to speed. If there is issues there--I do have 
extensive experience in international trade. I've felt the pain 
of dealing with the obstacles of international. I think you 
will find that, to the degree of my capability, I will be a 
very strong advocate to level the playing field and holding our 
partners accountable to applying many of the same rules they 
apply to us.
    Senator Snowe. Well, I appreciate that, and I certainly 
will be looking forward to working with you, because I do think 
it's important for our government to take strong positions, you 
know, especially against China, with respect to their, you 
know, inability to be abiding by the commitments they made. And 
as an--to become a member of the World Trade organization. It 
certainly has disadvantaged our workers in our company, and I 
think the currency undervaluation clearly has undercut our 
manufacturing sector most especially, and I believe that we 
need to take strong steps to make sure that China desists in 
pursuing this--you know, artificially contriving their currency 
value. I mean, I think that that is critically important.
    So I hope that we will be able to work on these issues and 
to evaluate exactly how, you know, we can address these issues, 
and currency manipulation is first and foremost. I mean, I 
think--and I know the President and the Secretary of Commerce 
and the USTRs have all made strong statements to China in 
respect to this issue, but I do think that we're going to have 
to follow up with strong actions, as well.
    And I will be looking forward to working with you. And, as 
Chair of the Small Business Committee, since you were a small-
businessman and you used some of the small business programs, I 
noticed, in your background, and, to great value, you were able 
to build your company based on those programs, so I'm looking 
forward to working with you to see how we can further help the 
small-business manufacturer develop in this country.
    Mr. Frink. I very much look forward to working with you. If 
it weren't for SBA and the small loan of $100,000 that got our 
company started, I literally wouldn't be here today.
    Senator Snowe. Well, I appreciate you saying that, and 
that's a story that, frankly, I think, isn't, you know, well 
known, in general, about the value of small-business programs 
and how much they leverage in job creation in America. And, you 
know, with the small investments that we make in Federal 
programs, they really do yield, you know, tremendous benefits 
with respect to job creation. But I think that's a little-known 
fact, so the fact that you have had that experience personally 
and directly and effectively will be very helpful to 
underscoring their value.
    Mr. Frink. If I may elaborate on that just a touch, I 
think--as I accepted an award on behalf of our company for an 
SBA Hall of Fame, Best of the Best, I asked for an opportunity 
to say that after 30 years I wanted to thank SBA. And not just 
for the money. That was certainly part of it. It was the 2 year 
plan that we were forced to put together to show that we could 
be successful, that three young entrepreneurs certainly had a 
vision and a sense of how to develop our business. But it was 
SBA's tough regulations that they laid down before us that 
created a blueprint, which they monitored--we didn't have a 
chance to vary from it--so that the lack of discipline or 
temptations of three young entrepreneurs were kept in check by 
the guidelines that SBA put in place. And I absolutely credit 
that--our success, not just for this money--I would rate the 
guidelines that were put in place to be as big a factor in our 
success as anything--and truly say thank you, SBA. So I'm a big 
advocate.
    Senator Snowe. Well, thank you. A great story. Thank you.
    Senator Wyden [presiding]. I thank my colleague.
    Mr. Frink, it dawned on me a few minutes ago, in and the 
title of your position is Assistant Secretary of Manufacturing 
and Services for the Department of Commerce, for all practical 
purposes you will be the manufacturing czar. And I would like 
to know what you think about outsourcing. And I thought that 
maybe I'd ask you before Lou Dobbs asks you.
    [Laughter.]
    Senator Wyden. Because there are certainly going to be a 
lot of other people that are going to ask you that question. 
And I'd like to hear your thoughts on it.
    Mr. Frink. Yes, sir. It's a big hot-button, in terms of 
manufacturing and why our people, why our companies, 
outsourcing and not keeping business and jobs here. I think 
that's one of the things that my new position will require, is 
to do what I can to create the most competitive environment for 
American manufacturers so they're encouraged to keep business 
here wherever possible.
    It's difficult in business to tell a manufacturer, or any 
service business, to not try to lower their costs. Intuitively, 
they're doing their job when they try to do whatever they can 
to lower their costs and make more money. Hopefully, that money 
won't be just put in fat pockets; it'll be spent to expand 
businesses, create new divisions that will hire more people, so 
it has a--it has somewhat of a snowballing effect.
    I do know that insourcing--kind of playing the other side 
of the coin--where we have business putting its work outside of 
borders of our country at the same time we have gained so much 
from other manufacturers in other countries who have done that 
in our country and hired so many Americans. So can we have it 
both ways to say it's not good for us to do it, but we sure 
enjoy the benefits of what comes into this country? Somewhere 
there's a balance that needs to be met, and all I can tell you 
right now is that I will work very hard to do what I can to 
make the climate for manufacturing attractive here so that 
there'll be less temptation or desire for--from an economy 
standpoint, to go offshore. In principle, as an American, it 
saddens me that we lose any of that. What made it happen and 
what can we do to get it back? That's going to be very much 
part of what I think people are going to expect from me and 
measure my success.
    Senator Wyden. It is a complicated question, and certainly 
this matter of setting the climate is a key part of it.
    Mr. Frink. Absolutely.
    Senator Wyden. I come from a part of the world where 
trade's extraordinarily important. I consider myself--I don't 
think there are very many people left who even describe 
themselves as free-traders, and I consider myself one. But I 
really hope that you will be much bolder and more creative in 
looking at this outsourcing issue than we've been in the past.
    And I want to bounce off you an idea that I proposed 
recently that's in a piece of legislation; and, granted, it 
hits you for the first time, but it's on this issue of wages 
and the fact that the wage differentials are so dramatic 
between our country and, for example, much of the world. When 
wage differentials were fairly modest, which they were for 
years, we could make up the difference essentially through 
increased productivity. Now our wages can be here, other 
people's wages are here, and it's not possible to do that.
    So, given that, I have proposed in legislation recently 
that you would immunize management from lawsuits for keeping 
jobs here in the United States, because I really fear that 
where we're headed, if something bold isn't done soon, is that 
corporate management will be sued for not taking jobs overseas. 
In other words, the argument will be, from stockholders, 
``Look, management, you're breaching your fiduciary obligations 
to us, as stockholders, for not taking the plant overseas,'' 
and that management, in effect, would get sued in the United 
States for keeping jobs at home.
    What do you think of that idea? I recognize you're hearing 
it, you know, for the first time, but it's coming, because I 
think we're going to have to come up with some new ideas. I 
don't think it's going to be enough to say we've got to hold 
down healthcare costs and improve education and improve 
transportation, because I agree with all of that, and those are 
certainly parts of setting the climate. But I wonder your 
reaction to the idea that I have just described. And maybe you 
have some other ideas. Because I think we've go to be a lot 
more aggressive and a lot bolder on this issue than we've been 
in the past. First, your reaction on what I've proposed.
    Mr. Frink. If I may just kind of back into a bit by saying, 
first of all, I think one of my trademarks over the years has 
been that I am a risk-taker. I think coming here and taking 
this position certainly falls in that category.
    [Laughter.]
    Mr. Frink. I'm not afraid of risk--well, I'm afraid of 
risk, but it doesn't keep me from taking risks. And I think 
there has got to be some creative answers. And I love 
creativity. That's been one of my other strong suits. As I get 
to know more about how suggestions like your creative one 
works, I also will want to have enough information to be able 
to be able to say, well--I'm kind of a subscriber to Newton's 
law, where every action there's somewhat of an opposite and 
equal reaction--there may be something that I'm not quite 
familiar with--and, as a counter to that creative proposal--
that I would probably like to get a sense of before I could 
say, ``Great idea.''
    I think, on the surface of it, it's certainly creative and 
has merit, and I think I could learn a lot from you. If you 
have--you seem to enjoy and favor creative answers. I thrive in 
that environment, and I would very much like to have a chance 
to learn a little bit more before I can give you the quality of 
answer that I think that deserves. On the surface, without 
knowing what other counterpoints are, I think it has some 
potential merit.
    Senator Wyden. Well, I appreciate that, and understand, 
when it strikes you cold, you can't start talking about a piece 
of legislation with specificity.
    But I think what we've got to do is, we've got to reward 
people for keeping jobs at home, and we've got to protect our 
people who have paid their dues, like you have.
    I've literally had people in Oregon come and say, ``We are 
worried about getting sued for keeping the jobs here.'' And I 
think that's what we're faced with. I think, if nothing is 
done, I really do fear the prospect of a company's management, 
people who have been in a community for years and years, worked 
hard, paid taxes, played by the rules--I really feel that 
they're going to have difficulty meeting their fiduciary 
responsibilities, and I think we ought to be looking to reward 
those people and protect them. And the fact that you're 
willing, at least at this point, to make it clear that you're 
open to new ideas is----
    Mr. Frink. Not just ``at this point.''
    Senator Wyden. Be ready for Lou Dobbs. He won't be as easy 
on you as I have been.
    [Laughter.]
    Senator Wyden. I intend, as well, to vote for both of you, 
and I appreciate the way you've handled the hearing. We'll let 
either of you have the last word. Admiral Stone, Mr. Frink, 
anybody have anything they want to wrap up with?
    Admiral Stone?
    Admiral Stone. Just what a privilege it is to be appearing 
before this Committee, and thank you, sir, for this 
opportunity.
    Senator Wyden. Mr. Frink?
    Mr. Frink. Yes, sir. I think, again, it's a daunting task. 
It's one that I don't take lightly. I don't think one man has 
all the answers and all the solutions. There are so many 
agencies within the Department that I hope to be able to bring 
together synergetically to be able to help make the right 
answers and bring together agencies. As I get more 
knowledgeable on the agencies and the Department of Commerce, I 
am more excited about the other bureaus and what they can do to 
help drive business. And, simply stated, I'm going to give you 
the best I've got.
    Senator Wyden. Very good.
    Gentlemen, the Committee is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Manufacturers in Support of Al Frink for Assistant Secretary for 
                             Manufacturing

Chairman John McCain,
Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Ranking Member Ernest Hollings,
Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman McCain and Ranking Member Hollings:

    On behalf of the Nation's manufacturing base, we urge you to 
support the nomination of Al Frink as Assistant Secretary of 
Manufacturing and Services at the Department of Commerce and ask you to 
work with your colleagues to confirm his nomination as soon as 
possible.
    Mr. Frink's background and 30 years of experience in the 
manufacturing sector give him keen insight into the needs of U.S. 
manufacturers. In my opinion, he will serve as an outstanding advocate 
and an important voice for American manufacturers and will work to 
ensure that government policies do not harm nor neglect the people who 
make things in America.
    As you may know, the Commerce Department's ``Manufacturing in 
America'' report released in January outlines the Administration's plan 
for manufacturing growth and renewal in the United States. The report 
makes nearly 60 recommendations that will contribute to this goal. 
Implementation of these recommendations will demonstrably improve the 
climate for U.S. manufacturers, as well as provide for the long-term 
growth, job creation, and technological innovation that is needed to 
guarantee our Nation's future prosperity. However, implementation is 
unlikely to occur without a person dedicated to representing the 
interests of manufacturers and our workers.
    Mr. Frink will represent the Administration as point person on 
manufacturing and will focus on ways to help this important sector 
thrive and compete in the global marketplace. Working closely with the 
Manufacturing Council, which has already held its first public meeting 
and is lead by former NAM Chairman Don Wainwright, Mr. Frink will no 
doubt be a strong and effective advocate for manufacturing in the 
United States.
    Once again, we urge you to confirm Mr. Frink as Assistant Secretary 
of Manufacturing and Services.
            Sincerely,

Aluminum Association
American Apparel & Footwear Association
American Architectural Manufacturers Association
American Fiber Manufacturers Association
American Furniture Manufacturers Association
American Gas Association
American Iron & Steel Institute
American Petroleum Institute
Associated Industries of Kentucky
Associated Industries of Massachusetts
Association of Home Appliance Manufacturers
Association for Manufacturing Technology
BEMA, The Baking Industry Suppliers Association
Book Manufacturers' Institute, Inc.
Carpet & Rug Institute
Colorado Association of Commerce & Industry
Connecticut Business & Industry Association
Cookware Manufacturers Association
Copper & Brass Fabricators Council
Council of Industrial Boiler Owners
Edison Electric Institute
Environmental Industry Associations
Fibre Box Association
Forging Industry Association
Georgia Industry Association
Hispanic Business Roundtable
Industrial Fasteners Institute
IPC--Association Connecting Electronics Industries
Kitchen Cabinet Manufacturers Association
Latino Coalition
Manufacturers Alliance/MAPI
Metals Service Center Institute
Metal Treating Institute
Motor & Equipment Manufacturers Association
National Association of Manufacturers
National Association of State Development Agencies
National Electrical Manufacturers Association
New Jersey Business & Industry Association
NOFMA: The Wood Flooring Manufacturers Association
Non-Ferrous Founders' Society
Ohio Manufacturers Association
Packaging Machinery Manufacturers Institute
Paperboard Packing Council
Plumbing Manufacturers Institute
Precision Machined Products Association
Precision Metalforming Association
San Diego Employers Association, Inc.
Steel Plate Fabricators Association
Steel Tank Institute
Synthetic Organic Chemical Manufacturers Association
Society of Glass & Ceramic Decorators
Steel Manufacturers Association
Utah Manufacturers Association
Valley Industrial Association of 
Aurora, IL
Waste Equipment Technology Association
Wisconsin Manufacturers & Commerce
Wood Machinery Manufacturers of America
      
                                 ______
                                 
                                       The Latino Coalition
                                                      July 11, 2004
Hon. John McCain,
Chairman, Senate Commerce Committee,
United States Senate,
Washington, DC.

Dear Chairman McCain:

    On behalf of the Board of Directors of The Latino Coalition, I 
strongly urge you to support the nomination of Al Frink as Assistant 
Secretary of Manufacturing and Services at the U.S. Department of 
Commerce.
    There's no doubt that Mr. Frink's extensive and impressive 
background, and his 30 years of experience in the manufacturing sector 
will make him a great asset and an effective advocate for the needs of 
U.S. manufacturers and their workers. We have worked closely with Al 
throughout the years and let us assure you that there's no stronger 
advocate for solid growth in our manufacturing sector. He will bring 
his extensive experience, intelligence and common sense to help 
implement policies that will guarantee the long-term growth, job 
creation, and technological innovation that is needed to guarantee our 
Nation's prosperity.
    Al was the co-founder of a successful carpet manufacturing company, 
Fabrica International, in Orange County, California. He personally 
embodies the American Dream of a young immigrant who came to this 
country looking for the opportunity to succeed and ended up founding a 
very successful manufacturing firm and creating hundreds of jobs in his 
community. He started this firm with the support of the U.S. Small 
Business Administration and now has sales of over $60 million in 2003 
and employs over 480 people in a predominantly Hispanic neighborhood.
    But aside from his qualifications and knowledge in the field, what 
impresses us most about him is his commitment to help the most 
vulnerable in our community. We have witnessed this first-hand. Al's 
served as chairman of our ``Por Mi Futuro'' program, designed to help 
promote savings among our Hispanic youth. Without his leadership, 
dedication and commitment to improving the lives of low-income 
children, this program would have never implemented as successful as it 
has been.
    On behalf of Latino business owners and professionals across the 
country, we urge you to support Al Frink's nomination and work hard to 
make sure that the Senate confirms him as soon as possible.
            Best regards,
                                       Robert G. de Posada,
                                                         President.
                                 ______
                                 
             American Iron and Steel Institute--STEELWORKS

                  Steel News--Thursday, April 8, 2004

           STEEL INDUSTRY VOICES SUPPORT FOR FRINK NOMINATION

Looks to new position for focus on solutions to manufacturing sector's 
                               challenges

    WASHINGTON, D.C.--American Iron and Steel Institute (AISI) 
President and CEO Andrew G. Sharkey, III, pledged the steel industry's 
support today to California manufacturer Al Frink, the newly nominated 
Assistant Secretary for Manufacturing and Services, and said he looks 
forward to working with him to shape a pro-manufacturing agenda.
    ``This is an important step toward beginning to implement the 
agenda laid out in the Administration's Manufacturing Report,'' Sharkey 
said. He said he is also encouraged that nominations have been made for 
the two top leadership positions on the new Manufacturing Council. 
Arthur ``Don'' Wainwright, Chairman and Chief Executive Officer of 
Wainwright Industries in St. Louis, and a former Chairman of the 
National Association of Manufacturers, has been nominated as Chairman 
of the council, and Karen Wright, Chief Executive Officer and owner of 
Ariel Corporation in Mount Vernon, Ohio, has been nominated as vice-
chair.
    He said AISI is most concerned about two broad areas of policy 
which, in his new post, Frink will have responsibility to address: (1) 
eliminating domestic policies that put U.S. manufacturers at a 
competitive disadvantage by significantly raising their costs, and (2) 
pursuing trade policies that will truly level the international playing 
field--for all manufacturers. Immediate areas for focus, Sharkey said, 
are the need for a significant revaluation of China's currency, 
stronger trade laws and trade enforcement, negotiations to fix WTO tax 
and trade inequities and policies that promote U.S. investment while 
reducing the burdens of rising health care, energy, litigation and 
regulatory costs.
    Sharkey said AISI and its U.S. member companies are especially 
looking forward to working with the Commerce Department's new Unfair 
Trade Task Force, Trade Agreement Enforcement Unit and Office of 
Industry Analysis. The common goal of these new offices, he said, 
should be to ``support trade and domestic policies that will allow 
American manufacturers to compete successfully both in the United 
States and in world markets.''
    AISI is a non-profit association of North American companies 
engaged in the iron and steel industry. The Institute serves as the 
voice of the North American steel industry, speaking out on behalf of 
its members in the public policy arena and advancing the case for steel 
in the marketplace as the preferred material of choice. AISI also plays 
a lead role in the development and application of new steels and 
steelmaking technology. AISI is comprised of 32 member companies, 
including integrated and electric furnace steelmakers, and 118 
associate and affiliate members who are suppliers to or customers of 
the steel industry. For more news about steel and its applications, 
view AISI's website at www.steel.org.
                                 ______
                                 
                      National Association of Manufacturers

            NAM Applauds Nomination of Al Frink To Serve as 
                 Assistant Secretary for Manufacturing

                           Contact: Hank Cox

         Jasinowski Welcomes Don Wainwright as Council Chairman

    WASHINGTON, D.C., April 8, 2004--``The Bush Administration's 
nomination of Al Frink to serve as the first Assistant Secretary of 
Commerce for Manufacturing and Services is an excellent choice that 
will be warmly received by manufacturers,'' said Jerry Jasinowski, 
President of the National Association of Manufacturers.
    An Hispanic-American, Frink is Co-Founder and Executive Vice 
President of Fabrica International, a manufacturer of carpets and rugs 
in Orange County, California. Over 32 years, Frink has forged his 
business into an internationally-recognized leader in the carpet 
industry. Founded in 1974, Fabrica employs more than 400 people.
    ``Al is a successful business leader with extensive experience in 
public policy,'' Jasinowski said. ``He has served on the Commerce 
Department's Exporters' Textile Advisory Committee, and is a 2004 
inductee to the Small Business Administration Hall of Fame. He will be 
an excellent advocate for U.S. manufacturing.''
    Jasinowski also welcomed the nomination of Arthur ``Don'' 
Wainwright as Chairman of the new Manufacturing Council, and Karen 
Wright to serve as Vice-Chair. Wainwright is Chairman and Chief 
Executive Officer of Wainwright Industries in St. Louis, recipient of 
the 1994 Malcolm Baldrige National Quality Award. He served as Chairman 
of the NAM 2001-2002, and is a member of the NAM Board of Directors.
    Wright is Chief Executive Officer and owner of Ariel Corporation in 
Mount Vernon, Ohio, which makes gas compressors for refineries, gas 
fields, pipeline service and gas gathering facilities the world over. 
Ariel Corporation is a long-time member of the NAM.
    ``This is a quality team that will do great things to bring 
government policies more into alignment with manufacturing 
priorities,'' Jasinowski said. ``The Bush Administration has honored 
its commitment to make manufacturing a priority and begun to follow 
through on its policy recommendations issued earlier this year. We look 
forward to working with Al, Don and Karen as they tackle the tough 
challenges facing U.S. manufacturers in an increasingly competitive 
global marketplace.''
                                 ______
                                 
                                       United States Senate
                                                     Washington, DC
Statement of Senate Democratic Leader Tom Daschle On the Nomination of 
     Al Frink as Assistant Secretary of Commerce for Manufacturing
    (WASHINGTON, D.C.)--Today, more than seven months after announcing 
he would create the job, the President has finally found a nominee to 
become his ``Jobs Czar.'' Senate Democratic Leader Tom Daschle released 
the following statement.
    ``I'm glad President Bush has proposed this appointment, but I'm 
sorry it's taken so long. Our nation desperately needs a new jobs 
policy. Nearly three million manufacturing jobs have been lost in the 
last three years.
    We're in the longest jobs slump since the Depression. In the seven 
months it took the Administration to fill this post, another 70,000 
manufacturing workers lost their jobs. There should be no higher 
priority than getting America back to work, and I hope the President 
will consider supporting some of the constructive proposals we've made 
to do that.''
                                 ______
                                 
                               The Carpet and Rug Institute
                                          Dalton, GA, July 12, 2004

Chairman John McCain,
Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Ranking Member Ernest Hollings,
Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman McCain and Ranking Member Hollings:

    On behalf of the carpet and rug industry, I urge you to support the 
nomination of Al Frink as Assistant Secretary of Manufacturing and 
Services for the U.S. Department of Commerce.
    The Carpet and Rug Institute (CRI) is the national trade 
association representing the carpet and rug industry. Headquartered in 
Dalton, Georgia, the Institute's membership consists of manufacturers 
representing over 98 percent of all carpet produced in the United 
States and suppliers of raw materials and services to the industry. 
While the majority of carpet is produced in Georgia, we have a national 
impact on all segments of the industry such as distributors, retailers, 
and installers. The carpet industry is the largest manufacturing 
employer in Georgia and has a $26B impact on Georgia's economy alone.
    Mr. Frink's background and 30 years of experience in the 
manufacturing sector give him keen insight into the needs of U.S. 
manufacturers. It is our opinion that he will serve as an outstanding 
advocate and an important voice for American manufacturers and will 
work to ensure that government policies do not harm nor neglect the 
people who make products in America.
    As you may know, Georgia is the leading carpet manufacturing state 
in the Nation. This manufacturing sector of our economy has remained 
strong against foreign competition and has weathered the recent 
economic storm successfully. Mr. Frink's vast experience in this sector 
should prove to be a tremendous asset to this position.
    Mr. Frink will represent the Administration as point person on 
manufacturing and will focus on ways to help this important sector 
thrive and compete in the global marketplace. Mr. Frink will, no doubt, 
be a strong and effective advocate for manufacturing in the United 
States.
            Respectfully,
                                           Werner H. Braun,
                                                         President.
                                 ______
                                 
                                        Rockwell Automation
                                     Milwaukee, WI, August 14, 2004

Chairman John McCain,
Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Ranking Member Ernest Hollings,
Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman McCain and Ranking Member Hollings:

    Rockwell Automation, a global leader in industrial automation 
products and systems, enthusiastically supports the nomination of Al 
Frink as Assistant Secretary of Manufacturing and Services at the 
Department of Commerce. We ask that you work with your colleagues to 
confirm this appointment at your earliest convenience.
    Rockwell Automation maintains a large U.S. manufacturing base and 
supplies other U.S. manufacturers with state of the art automation 
equipment to competitive in the global markets. The Commerce Department 
produced an excellent report on ``Manufacturing in America'' that 
contained over 50 recommendations to stimulate our manufacturing 
climate. It is essential we begin to act on these in a timely and 
deliberate way to keep our economy as a whole healthy. With the benefit 
of Mr. Frink's commitment and experience, we will have a strong 
advocate to develop an environment that supports manufacturing 
prosperity.
    Last year Rockwell Automation celebrated our 100th anniversary. As 
we begin the business of this next century we are facing barriers that 
require new and creative solutions. With your confirmation, as 
Assistant Secretary of Manufacturing and Services, Mr. Frink, can be 
that champion for the manufacturing sector.
            Sincerely,
                                            Keith Nosbusch,
                             President and Chief Executive Officer.
                                 ______
                                 
               American Furniture Manufacturers Association
                                      Washingion, DC, July 15, 2004
Hon. John McCain,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman McCain:

    We were very pleased that your committee held a hearing this week 
on the nomination of Mr. Albert A. Frink, Jr,. to be Assistant 
Secretary of Commerce for Manufacturing and Services. Our organization 
strongly supported the creation of a new leadership position at the 
Commerce Department that would be responsible for coordinating the 
Administration's response to the challenges facing U.S. manufacturers. 
AFMA support Mr, Frink's nomination, and we urge you and your committee 
colleagues to move his nomination forward as soon as possible. Doing so 
would be an important step toward fulfilling a key recommendation in 
Manufacturing in America, the Commerce Department's comprehensive 
strategy to revitalize the domestic manufacturing sector.
    As you may know, the furniture manufacturing industry in America is 
undergoing a significant transition, particularly as it adjusts to the 
tremendous growth in imports. Now, more than at any other time in 
recent history, it is essential for Federal pollcymakers to understand 
the issues that affect domestic manufacturers, and to create an 
economic environment here at home that will enable AFMA companies and 
other furniture manufacturers to grow and compete in an increasingly 
global economy. We believe a new Assistant Secretary for Manufacturing 
and Services will play a valuable role not only in enhancing the 
government's focus on improving manufacturing competitiveness, but also 
by being the principal advocate within the government for America's 
manufacturing sector. AFMA stands ready to assist you in anyway to 
advance Mr. Frink's nomination expeditiously this session.
    Thank you for your consideration, Please do not hesitate to contact 
me if you have any questions or if we can be of assistance to you in 
any way.
            Sincerely,
                                     Christopher P. Pearce,
                                         Director of Congressional 
                                              & Regulatory Affairs.
cc: Members of the Commerce Committee

                                  <all>

</pre></body></html>
